<html>
<title> - A NEW APPROACH TO INCREASE TRADE AND SECURITY: AN EXAMINATION OF CBP'S PUBLIC-PRIVATE PARTNERSHIPS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







A NEW APPROACH TO INCREASE TRADE AND SECURITY: AN EXAMINATION OF CBP'S 
                      PUBLIC-PRIVATE PARTNERSHIPS

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                               BORDER AND
                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 4, 2015

                               __________

                           Serial No. 114-42

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                               __________
                               
                       U.S. GOVERNMENT PUBLISHING OFFICE 

99-748 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                 Candice S. Miller, Michigan, Chairman
Lamar Smith, Texas                   Filemon Vela, Texas
Mike Rogers, Alabama                 Loretta Sanchez, California
Jeff Duncan, South Carolina          Sheila Jackson Lee, Texas
Lou Barletta, Pennsylvania           Brian Higgins, New York
Will Hurd, Texas                     Norma J. Torres, California
Martha McSally, Arizona              Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
              Paul L. Anstine, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
         Alison Northrop, Minority Subcommittee Staff Director
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairman, Subcommittee on 
  Border and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Filemon Vela, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Border and 
  Maritime Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     7

                               Witnesses

Mr. John Wagner, Deputy Assistant Commissioner, Office of Field 
  Operations, U.S. Customs and Border Protection, U.S. Department 
  of Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Mr. Michael Gelber, Deputy Commissioner, Public Buildings 
  Service, U.S. General Services Administration:
  Oral Statement.................................................    14
  Prepared Statement.............................................    15
Mr. Sam F. Vale, President, Starr-Camargo Bridge Company:
  Oral Statement.................................................    17
  Prepared Statement.............................................    18
Mr. David A. Garcia, County Administrator, Cameron County, Texas:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23

                             For the Record

The Honorable Filemon Vela, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Border and 
  Maritime Security:
  Statement of Anthony M. Reardon, National President, National 
    Treasury Employees Union.....................................    29
 
A NEW APPROACH TO INCREASE TRADE AND SECURITY: AN EXAMINATION OF CBP'S 
                      PUBLIC-PRIVATE PARTNERSHIPS

                              ----------                              


                      Wednesday, November 4, 2015

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, Barletta, Hurd, McSally, 
Vela, and Torres.
    Mrs. Miller. The Committee on Homeland Security, the 
Subcommittee on Border and Maritime Security, will come to 
order.
    The subcommittee is meeting today to examine U.S. Customs 
and Border Protection's public-private partnerships. We will 
call them P3s.
    So we are very pleased to be joined today by Mr. John 
Wagner, who is the deputy assistant commissioner of the Office 
of Field Operations at CBP; Mr. Michael Gelber, who is the 
deputy commissioner for the public buildings service at GSA; 
and Mr. Sam Vale, president of the South Texas Assets 
Consortium; and Mr. David Garcia, who is the county 
administrator for Cameron County, Texas.
    I will introduce them more formally in just a moment, but 
we certainly welcome them all to the subcommittee today.
    The commerce that moves through the Nation's ports of 
entry, also known as POEs, powers our economy, drives job 
creation, and is fundamental to our way of life. If POEs shut 
down or traffic is backed up, millions of dollars can be lost, 
economic growth comes to a halt, travelers find other 
destinations to visit, and would-be customs revenue destined 
for the U.S. Treasury goes away.
    Despite the importance of POEs to the Nation's economic 
health, modernization efforts have been significantly 
underfunded, and CBP staffing has not kept pace with growing 
demand. While CBP is frequently asked to provide new or 
additional services at POEs across the country, it is often 
unable to accommodate these requests due to staffing shortages 
or other revenue constraints.
    Over the past few years, this Congress has appropriated 
more than $2 billion for POE construction, but that is dwarfed 
by what we estimate we actually need, which is $4 billion to $6 
billion, to really modernize our POEs.
    Air-passenger volumes are growing at a rate of 4 to 5 
percent a year. The Nation has experienced a 24-percent 
increase in cargo containers since the Great Recession. More 
cars and trucks transit the land POEs than ever before. We are 
falling further behind every year to match the demands placed 
on our CBP Officers and infrastructure.
    In 2014, Congress appropriated hundreds of millions of 
dollars for an additional 2,000 CBP Officers Nation-wide. 
However, according to CBP's workflow staffing model, the 
current need is more than 2,500 additional officers, with 
projections to grow even further as travel volume increases.
    In today's current budget environment, CBP and GSA are very 
hard-pressed to find the billions of dollars needed to fix our 
failing infrastructure and to fund additional officers, so we 
need to be creative. We need to explore new opportunities and 
new approaches, certainly, to fund the great need across our 
Nation.
    The private sector is often a very willing partner who can 
work with CBP on a mutually beneficial basis to pay for 
additional overtime staffing or to donate real or personal 
property to make POEs run more efficiently at peak times.
    Congress provided such authority in section 559 for the 
Fiscal Year 2014 Approps Act. This authority established a 
pilot program allowing them to enter into public-private 
partnerships, these P3s, to pay for additional officer hours 
and accept donations of real and personal property such as new 
inspection booths or computers or scanning equipment.
    From everything that this committee has heard thus far, 
these pilots are working well to meet the immediate needs of 
land, air, and sea POEs across the Nation. We certainly look 
forward to hearing from our witnesses today about how these can 
be improved.
    Today, actually, 19 POEs have entered into reimbursable 
service agreements with CBP that will pay for additional 
officer hours when those air, land, and sea ports need it most. 
The need for this type of agreement has been very clearly 
demonstrated. So far, CBP has been reimbursed for over $12.9 
million, almost $13 million, in expanded overtime.
    In one case study, it was found that, despite increases in 
travel volumes at the Dallas/Fort Worth Airport, which they 
have experienced an estimated 45 percent decrease, actually, on 
its average wait times as a result of the partnership that they 
entered into with CBP. So great news there.
    In addition, three localities in Texas are poised to take 
advantage of donation authority at land POEs to provide CBP 
with additional booths, new scanning equipment, as well as 
renovations to an agricultural lab.
    This is why the full committee, through a very thoughtful 
amendment offered by the gentleman from Texas, Mr. Hurd, 
unanimously voted to permanently authorize CBP's public-private 
partnership program, which is characterized by its Reimbursable 
Services Program and its Donation Acceptance Program.
    But the donation authority is limited and is not designed 
to pay for an entire POE or significant expansion. 
Congressional appropriations alone are appropriate for such 
large-scale projects of National importance.
    As our economic and security requirements grow, our POEs 
must be able to accommodate more trucks, more passengers, and 
more cargo, while at the same time providing convenient and 
secure travel for people who cross the border each and every 
day. That is why I fully support concepts like P3s and other 
innovative ways to fund infrastructure improvements. Our 
authorization language makes sure CBP can leverage this 
important tool well into the future.
    With the second-busiest border port of entry along the 
Northern Tier, the Blue Water Bridge, in my district, as well 
as the busiest POE across the Northern Tier, the Northern 
Border, which is the Ambassador Bridge, which is about an hour 
to the south of my district in Detroit, I am very interested in 
the application of P3s to meet the infrastructure and staffing 
challenges close to home on both the Northern and the Southern 
Border.
    So, again, we look forward to hearing from our witnesses on 
how GSA works with CBP on both the reimbursable service 
agreements and donation authority provided by the Congress to 
improve the flow of travel and cargo.
    CBP- and GSA-owned and -leased POEs across the Nation are 
in dire need of modernizing themselves and expansion, as well. 
We certainly need to tap into the expertise and willingness of 
the private sector and to partner with them to come up with 
better, more cost-effective approaches for the new port-of-
entry construction, modernization, and staffing needs of the 
future.
    [The statement of Chairman Miller follows:]
                  Statement of Chairman Candice Miller
                            November 4, 2015
    The commerce that moves through the Nation's ports of entry powers 
our economy, drives job creation, and is fundamental to our way of 
life. If ports of entry shut down, or traffic is backed up--millions of 
dollars may be lost, economic growth comes to an abrupt halt, travelers 
find other destinations to visit, and would-be customs revenue destined 
for the U.S. Treasury goes away.
    Despite the importance of ports of entry to the Nation's economic 
health, port of entry modernization efforts have been significantly 
underfunded, and Customs and Border Protection staffing has not kept 
pace with growing demand.
    While CBP is frequently asked to provide new or additional service 
at ports of entry across the country, CBP is often unable to 
accommodate these requests due to staffing shortages and other resource 
constraints.
    Over the past few years this Congress has appropriated more than $2 
billion dollars for port of entry construction, but that is dwarfed by 
the estimated $4-6 billion dollars needed to fully modernize our ports 
of entry.
    Air passenger volumes are growing at a rate of 4 to 5 percent a 
year, the Nation has experienced a 24% increase in cargo containers 
since the dark days of the Great Recession, and more cars and trucks 
transit the land ports of entry than ever before.
    We are falling further behind every year to match the demands 
placed on our CBP Officers and infrastructure.
    In 2014, Congress appropriated hundreds of millions of dollars for 
an additional 2,000 CBP Officers Nation-wide. However, according to 
CBP's workflow staffing model, the current need is more than 2,500 
additional officers--with projections to grow even further as travel 
volume increases.
    In today's current budget environment, CBP and GSA are hard-pressed 
to find the billions of dollars needed to fix our failing 
infrastructure and fund additional officers, so we must be creative and 
explore new approaches to fund the great need across the Nation.
    The private sector is often a willing partner who can work with 
CBP, on a mutually-beneficial basis, to pay for additional overtime 
staffing, or donate real or personal property to make ports of entry 
run more efficiently at peak times.
    Congress provided such authority to CBP and GSA in section 559 of 
the fiscal year 2014 Appropriations Act. This authority established a 
pilot program, allowing them to enter into public-private partnerships 
to pay for additional officer hours, and to accept donations of real 
and personal property such as new inspection booths, computers, and 
scanning equipment.
    From everything that this committee has heard, those pilots are 
working well to meet the immediate needs of land, air, and sea ports of 
entry across the Nation and I look forward to hearing from our 
witnesses today on how these can be improved.
    Today, 19 ports of entry have entered into reimbursable service 
agreements with CBP that will pay for additional officer hours when 
those air, land, and seaports need it most. The need for this type of 
agreement has been clearly and convincingly demonstrated--so far CBP 
has been reimbursed for over $12.9 million in expanded overtime. In one 
case study, it was found that, despite increases in travel volumes at 
Dallas Fort Worth Airport, DFW has experienced an estimated 45% 
decrease on its average wait time as a result of the partnership they 
entered into with CBP.
    In addition, three localities in Texas are poised to take advantage 
of donation authority at land ports of entry to provide CBP with 
additional booths, new scanning equipment, and renovations to an 
agricultural lab.
    This is why the full committee, through a thoughtful amendment 
offered by the gentleman from Texas, Mr. Hurd, unanimously voted to 
permanently authorize CBP's Public-Private Partnership program, which 
is characterized by its Reimbursable Services Program and its Donation 
Acceptance Program.
    But the donation authority is limited, and is not designed to pay 
for an entire port of entry, or significant expansion. Congressional 
appropriations alone are appropriate for such large-scale projects of 
National importance.
    As our economic and security requirements grow, our ports of entry 
must be able to accommodate more trucks, passengers, and cargo, while 
at the same time providing convenient and secure travel for the people 
who cross the border each day.
    That is why I fully support concepts like public-private 
partnerships and other innovative ways to fund infrastructure 
improvements. Our authorization language makes sure CBP can leverage 
this important tool well into the future.
    And with the second-busiest port of entry along the Northern Tier, 
the Blue Water Bridge, in my district, and the busiest along the 
Northern Border, the Ambassador Bridge just 60 minutes to the south, I 
am keenly interested in the application of public-private partnerships 
to meet the infrastructure and staffing challenges close to home.
    I look forward to hearing from our witnesses on how the GSA works 
collaboratively with CBP on both the Reimbursable Service Agreements 
and Donation authority provided by this Congress to improve the flow of 
travel and cargo through the air, land, and sea ports.
    CBP- and GSA-owned and -leased ports of entry across the Nation are 
in dire need of modernization and expansion. I believe we need to tap 
into the expertise and willingness of the private sector, and partner 
with them to come up with better, more cost-effective approaches for 
new port of entry construction, modernization, and staffing needs.

    Mrs. Miller. At this time, I would now recognize the 
Ranking Member of the subcommittee, the gentleman from Texas, 
Mr. Vela, for any statement that he may have.
    Mr. Vela. Thank you, Chairman Miller. I would also like to 
thank you for holding today's hearing examining the U.S. 
Customs and Border Protection's public-private partnerships, 
otherwise known as P3s.
    I would also like to thank you and the committee staff for 
inviting two of our witnesses from the Rio Grande Valley, who 
are with us today, Mr. Vale and Mr. Garcia, and just say that 
one of the things we have learned since working with you on 
this committee is that we recognize how important the Northern 
Border is to this country, and so thank you for allowing us to 
invite our south Texas representatives.
    As a Member representing a border district, I understand 
and have seen first-hand the importance of maintaining 
infrastructure and adequate staffing at our ports of entry. I 
am pleased to have Mr. David Garcia, the county administrator 
from Cameron County, Texas, in my Congressional district, 
joining us for this hearing today.
    The Rio Grande Valley is made up of four counties--Cameron, 
Hidalgo, Starr, and Willacy--with a combined population of 1.3 
million people who share a border with almost 2 million 
citizens of Mexico. Within this 99-mile span of deep-south 
Texas lie 11 international bridges, many of which participate 
in the South Texas Assets Consortium, which was the brainchild 
of Mr. Vale and is an organized effort by participating bridge 
communities to take advantage of the public-private 
partnerships offered by CBP.
    These ports of entry help drive cross-border commerce and 
travel in my district and across the region. The services 
rendered by Customs and Border Protection officers at our ports 
of entry impact not only border communities but also the 
Nation's economy as a whole.
    According to CBP's data, on a typical day in fiscal year 
2014, officers processed over 1 million passengers and 
pedestrians at air, land, and sea ports of entry, as well as 
inspected over 70,000 truck, rail, and maritime containers. 
Those numbers represent billions of dollars a day in trade and 
travel that drive the growth of our local, State, and National 
economies.
    Meanwhile, our ports of entry are aging. Their 
infrastructure often cannot accommodate the volume of trucks, 
vehicles, and pedestrians that cross on a daily basis, 
contributing to increased wait times. Also, many of these 
facilities cannot be retrofitted to accommodate post-9/11 
security technology.
    CBP previously estimated it would need $6 billion over 10 
years to modernize existing ports of entry to meet its current 
operational requirements, but funding has fallen far short of 
this need. Staffing shortages also continue to be a problem, as 
CBP remains thousands of officers short of the number necessary 
to staff our ports of entry properly. This shortage also 
contributes to growing wait times, costing the U.S. economy and 
American consumers billions of dollars.
    CBP's private-public partnership program was established to 
allow for alternative funding sources to meet the growing 
demand for Federal services at ports of entry. This program can 
be beneficial in providing a short-term solution to a shortage 
of funding for staffing and infrastructure. However, it is not 
a long-term solution.
    CBP operations and infrastructure improvements are 
government functions that have traditionally been funded by 
Federal appropriations and user fees. Under this model, ports 
of entry with greater resources could access more CBP services 
than ports of entry with equal need but fewer resources.
    I understand the number of applications for reimbursable 
service agreements and donation proposals submitted by non-
Federal partners is growing. This clearly illustrates that 
there is a strong demand for more CBP Officers and modern 
infrastructure at our ports of entry. But we must ensure that 
we as a Nation continue to fund security and facilitation needs 
at ports of entry.
    Today, I would like to hear from our Federal witnesses 
about how P3 proposals are prioritized and how these programs 
are affecting the allocation of our limited border security 
resources.
    I am also looking forward to hearing from our witnesses 
representing Texas border communities about their perspective 
on these programs and what they predict the future impact of 
these programs may be for the region. I understand the appeal 
of these programs, given current resource limitations, but 
maintain that Congress has a responsibility to provide CBP the 
resources to fulfill its mission.
    I thank the witnesses for joining us today, and I look 
forward to your testimony.
    [The statement of Ranking Member Vela follows:]
                Statement of Ranking Member Filemon Vela
                            November 4, 2015
    As a Member representing a border district, I understand and have 
seen first-hand the importance of maintaining infrastructure and 
adequate staffing at our ports of entry. I am pleased to have Mr. David 
Garcia, county administrator from Cameron County, Texas, in my 
Congressional district, joining us for the hearing today.
    The Rio Grande Valley is made up of four counties--Cameron, 
Hidalgo, Starr, and Willacy with a combined population of 1.3 million 
people who share a border with almost 2 million citizens of Mexico. 
Within this 99-mile span of deep South Texas lie 11 international 
bridges--many of which participate in the South Texas Asset 
Consortioum--an organized effort by participating bridge communities to 
take advantage of the public-private partnerships offered by CBP. These 
ports of entry help drive cross-border commerce and travel in my 
district and across the region.
    The services rendered by Customs and Border Protection Officers at 
our ports of entry impact not only border communities, but also the 
Nation's economy as a whole. According to CBP's data, on a typical day 
in fiscal year 2014, officers processed over 1 million passengers and 
pedestrians at air, land, and sea ports of entry as well as inspected 
over 70,000 truck, rail, and maritime containers. Those numbers 
represent billions of dollars a day in trade and travel that drive the 
growth of our local, State, and National economies. Meanwhile, our 
ports of entry are aging.
    Their infrastructure often cannot accommodate the volume of trucks, 
vehicles, and pedestrians that cross on a daily basis, contributing to 
increased wait times. Also, many of these facilities cannot be 
retrofitted to accommodate post-9/11 security technology. CBP 
previously estimated it would need $6 billion over 10 years to 
modernize existing ports of entry to meet its current operational 
requirements, but funding has fallen far short of this need.
    Staffing shortages also continue to be a problem, as CBP remains 
thousands of officers short of the number necessary to staff our ports 
of entry properly. This shortage also contributes to growing wait 
times, costing the U.S. economy--and American consumers--billions. 
CBP's Public-Private Partnership program was established to allow for 
alternative funding sources to meet the growing demand for Federal 
services at ports of entry. This program can be beneficial in providing 
a short-term solution to a shortage of funding for staffing and 
infrastructure. However, it is not a long-term solution.
    CBP operations and infrastructure improvements are Government 
functions that have traditionally been funded by Federal appropriations 
and user fees. Under a ``pay-to-play'' model, ports of entry with 
greater resources could access more CBP services than ports of entry 
with equal need but fewer resources. I understand the number of 
applications for reimbursable service agreements and donations 
proposals submitted by non-Federal partners is growing. This clearly 
illustrates that there is a strong demand for more CBP Officers and 
modern infrastructure at our ports of entry.
    But we must ensure that we as a Nation continue to fund security 
and facilitation needs at ports of entry. Today, I would like to hear 
from our Federal witnesses about how P3 proposals are prioritized and 
how these programs are affecting the allocation of our limited border 
security resources. I am also looking forward to hearing from our 
witnesses representing Texas border communities about their perspective 
on these programs and what they predict the future impact of these 
programs may be for the region.
    Again, I understand the appeal of these programs given current 
resource limitations, but maintain that Congress has a responsibility 
to provide CBP the resources necessary resources to fulfill its 
mission.

    Mrs. Miller. I thank the gentleman very much for his 
comments.
    Other Members of the committee are reminded that opening 
statements can be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                            November 4, 2015
    I want to touch on an issue that may not seem related to the issue 
before subcommittee, but in fact is. This week, the House is 
considering a highway bill that proposes to increase Customs Users Fees 
and direct the funding not to staffing or infrastructure at our ports 
of entry, but to unrelated transportation projects. The very fact that 
we are here today discussing having local communities and private 
entities pay for what has traditionally been a Government 
responsibility speaks to the needs at America's ports of entry.
    I strongly oppose diverting homeland security fees to a non-
security purpose, and believe that revenue must continue to be used for 
CBP operations at ports of entry. That is why I have joined with the 
Ranking Members of the Committee on Ways and Means and the 
Appropriations Committee Subcommittee on Homeland Security in 
submitting an amendment to the highway bill striking this diversion of 
much-needed border security funds.
    It is my hope that other more appropriate revenue streams will 
ultimately be utilized for the highway fund because the needs at ports 
of entry continue to be great. Indeed, CBP previously estimated it 
would need about $6 billion over 10 years to modernize its land port of 
entry inventory to meet its operational requirements.
    That figure does not even include staffing needs, and we know that 
CBP continues to be thousands of officers short by its own staffing 
model. Clearly, these shortages are the impetus for CBP's Public-
Private Partnership program. While I recognize the interest in finding 
an alternative means of funding additional staffing and infrastructure 
at ports of entry in the absence of other revenue sources, I am 
concerned that the ``pay-to-play'' aspect of the program may make it 
difficult for certain ports of entry to compete.
    I understand, for instance, that the use of reimbursable service 
agreements at land ports of entry has decreased recently, likely in 
part due to their inability to pay for additional services. Meanwhile, 
use of these agreements at airports, which often have deeper pockets, 
continues to be strong. This disparity may not be in our interest when 
it comes to ensuring security and facilitation at all of America's 328 
ports of entry.
    So, while CBP's Public-Private Partnership programs may have their 
place, I have some questions for the witnesses before us about how the 
programs operate, how they can be improved, and what must be done to 
ensure appropriate staffing and resources for all ports of entry.
    I am particularly interested in hearing from our local witnesses 
today about their viewpoints on the program, and what their unique 
staffing and infrastructure needs may be currently and over the longer 
term. CBP's Public-Private Partnership program may be a good Band-Aid 
for addressing our needs at ports of entry, but I doubt it is a cure.

    Mrs. Miller. Again, we are pleased to be joined by four 
very distinguished witnesses. Let me more formally introduce 
them today as they are going to be talking about this important 
topic.
    Mr. John Wagner, deputy assistant commissioner for U.S. 
Customs and Border Protection's Office of Field Operations. He 
formerly served as executive director of admissibility and 
passenger programs, with responsibility for all traveler-
admissibility-related policies and programs, including the 
Trusted Traveler program, the Electronic System for Travel 
Authorization, and Immigration Advisory Program, and the 
Fraudulent Document Analysis Unit.
    We were talking just before we came in here, I think this 
is your eighth time before this subcommittee and 14, I believe 
is what you said--I forget 12 or 14--before the full committee. 
So you are a frequent traveler here, and we certainly 
appreciate your coming back. We have to get you a desk here.
    Mr. Michael Gelber is the deputy commissioner for public 
buildings service at the U.S. General Services Administration. 
The Public Buildings Service is one of the largest public real 
estate organizations in the world, operating more than 9,000 
owned and leased properties across the United States. Mr. 
Gelber began his career at GSA in 1988 and has held several 
leadership positions, including service at the Northwest and 
the Great Lakes Regions.
    So we welcome you to the committee, as well.
    Mr. Sam Vale is the president of the South Texas Assets 
Consortium and is the past chairman of the Border Trade 
Alliance. Mr. Vale also serves as the president of the Starr-
Camargo Bridge Company, an international bridge port of entry 
connecting Rio Grande City, Texas, with the city of Camargo, 
Mexico. In his time in the private sector, Mr. Vale has 
participated in several P3s with the U.S. Government.
    So we welcome you. Thanks so much for traveling to 
Washington, DC, to join with us today.
    Then Mr. David Garcia is the county administrator for 
Cameron County, Texas. In this role, he directs and supervises 
the day-to-day operations of all non-elected county departments 
and agencies that are under the direct oversight of the 
Commissioners' Court. Prior to Cameron County, Mr. Garcia 
served for 10 years on the staff of U.S. Congressman Solomon 
Ortiz here in Washington, DC.
    I didn't realize that, but I served with Solomon on the 
House Armed Services Committee and traveled to the border with 
him, actually, several times. So he was really a real value-add 
here.
    The witnesses' full written statements will appear in the 
record.
    The Chair now recognizes Mr. Wagner to testify.

STATEMENT OF JOHN WAGNER, DEPUTY ASSISTANT COMMISSIONER, OFFICE 
 OF FIELD OPERATIONS, U.S. CUSTOMS AND BORDER PROTECTION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Wagner. Chairman Miller, Ranking Member Vela, and 
Members of the subcommittee, thank you for the opportunity to 
appear today to discuss the use of U.S. Customs and Border 
Protection's public-private partnerships to meet the challenge 
of growing volumes of trade and travel to the United States.
    The Office of Field Operations is CBP's front-line entity 
responsible for securing and facilitating international trade 
and travel at our Nation's 300-plus ports of entry. Each year, 
we process nearly 30 million cargo containers and approximately 
370 million passengers in the land, sea, and air environments, 
and trade and travel volumes continue to rise.
    While the continued increase in lawful cross-border 
commerce is a welcome benefit for the economy, it also presents 
several complex challenges for an organization whose front line 
strength does not expand at the same rate.
    To keep pace with the growth in international trade and 
travel in an austere budget environment, we developed a three-
part resource optimization strategy that identifies staffing 
requirements using a workload staffing model, streamlines 
business processes, and promotes opportunities for public-
private partnerships to support staff increases and facility 
improvements. It is this last item that I wish to highlight for 
you today.
    Thanks to the support of Congress, CBP recently received 
limited statutory authority to collaborate with private-sector 
and Government partners through the Reimbursable Services 
Program and the Donation Acceptance Program to address port-
specific needs for enhanced CBP services and infrastructure 
improvements that would not otherwise be possible.
    It is common practice for private enterprise to pay for 
police services for special events or for a local government to 
pay for additional police presence during seasonal peaks in 
tourism or business. Similarly, CBP is frequently asked by our 
stakeholders to provide additional or enhanced services at 
ports of entry across the country.
    We recognize the positive impacts that accompany enhanced 
CBP services at the ports, and we very much want to support our 
stakeholders in these endeavors. However, with finite 
resources, we are not always able to accommodate these 
requests.
    The Reimbursable Services Program, initially authorized 
with section 560 of the Consolidated and Further Continuing 
Appropriations Act of 2013 and expanded with section 559 of the 
Consolidated Appropriations Act of 2014, allows CBP to support 
requests from stakeholders for expanded services, including 
customs, agriculture processing, border security services, and 
immigration-inspection-related services at the ports of entry.
    The program enables stakeholders the means to work within 
their budgets and business plans and provides CBP the 
flexibility to meet situational or future demand for extended 
or enhanced services at specific ports of entry.
    In the first 21 months of the program, CBP has entered into 
agreements with 20 stakeholders, providing more than 112,000 
additional processing hours at the request of our partners, 
accounting for processing of more than 2.8 million travelers 
and nearly 425,000 personal and commercial vehicles.
    Among the participating land ports of entry--El Paso, for 
example--during periods when CBP provided enhanced services, 
private vehicle volume increased by 26 percent while wait times 
remained constant. Pedestrian volume increased by 16 percent 
while average wait time decreased by 36 percent.
    Similar benefits have been realized by the South Texas 
Assets Consortium during peak travel periods such as 
Eastertime. Among the participating airports, the added hours 
and supplementary lane openings, in conjunction with other 
passenger processing initiatives, have helped decreased wait 
times by an average of almost 30 percent while traveler volume 
has increased about 7 percent.
    This past May, we surveyed the 10 stakeholders that we 
partnered with during the first calendar year of the 
Reimbursable Services Program to gain insight into how 
stakeholders feel about the program and to identify areas for 
improvement. Respondents gave the program an overall 
satisfaction score of 4.4 out of 5. Ninety-four percent of the 
responses indicated the program has had a positive impact on 
the stakeholder, their goals, and the community.
    The program continues to expand as new agreements are 
signed every year, as authorized by this 5-year pilot program.
    It is important to note that it is not CBP's intention, nor 
does the law allow, for any agreement for reimbursable service 
to either reduce or otherwise affect existing CBP services 
funded by other sources.
    Growing volumes of travel and trade, along with increasing 
stakeholder requests for additional service, present another 
challenge for CBP infrastructure. More than half of the 
Nation's ports of entry are located at our land borders, and 
most were built to support the distinct and independent 
operations of pre-DHS components.
    Furthermore, several land ports were built more than 70 
years ago. Even those constructed as recently as 15 years ago 
require renovation to accommodate our consolidated operations 
technology and present-day security standards.
    The donation program provides CBP and GSA the opportunity 
to consider donation proposals and address local port-of-entry 
infrastructure needs--needs that, because we have had to 
prioritize improvements on a Nation-wide level, would not 
otherwise have been addressed.
    Accepted donations may be used for any necessary activity 
related to construction, alteration, operation, or maintenance 
of a new or existing port, including the land acquisition and 
technology. We worked very closely to develop robust procedures 
and criteria to collaboratively and systemically evaluate these 
proposed donations. Already, we have coordinated to select 
three donation proposals for planning and development.
    So thank you for the opportunity to appear here today, and 
I am happy to answer any of your questions.
    [The prepared statement of Mr. Wagner follows:]
                   Prepared Statement of John Wagner
                            November 4, 2015
    Chairman Miller, Ranking Member Vela, and distinguished Members of 
the subcommittee--thank you for the opportunity to discuss U.S. Customs 
and Border Protection's (CBP) efforts to partner with our stakeholders 
to secure and facilitate growing volumes of travel and trade.
    CBP is responsible for securing the Nation's borders at and between 
ports of entry (POEs). CBP serves as the front line in defending the 
American public against terrorists and instruments of terror and 
protects our economic security while facilitating lawful international 
travel and trade. CBP takes a comprehensive approach to border 
management and control, combining National security, customs, 
immigration, and agricultural protection into a coordinated whole.
    The Office of Field Operations (OFO) is the law enforcement entity 
within CBP responsible for carrying out CBP's complex and demanding 
mission at all POEs. Staffing needs at the POEs continue to increase as 
CBP takes on additional mission requirements and as trade and travel 
volumes continue to grow. To address this on-going challenge, we 
developed a three-part Resource Optimization Strategy that: (1) 
Identifies staffing requirements using a Workload Staffing Model; (2) 
ensures the efficient use of resources by optimizing current business 
processes; and (3) develops and uses alternative funding mechanisms, 
such as reimbursement agreements, to support staff increases where 
appropriate.
    The Workload Staffing Model employs a rigorous, data-driven 
methodology to identify staffing requirements by considering all the 
activities performed by CBP Officers at our POEs, the volume of those 
activities, and the levels of effort required to carry them out. The 
staffing model also incorporates processing efficiencies gained through 
business transformation initiatives such as trusted trader and traveler 
programs and Automated Passport Control kiosks. The most recent results 
of this model show a need for 2,624 additional CBP Officers through 
fiscal year 2016.
    Thanks to the support of Congress, the Consolidated Appropriations 
Act, 2014, Pub. L. 113-764, and the Department of Homeland Security 
Appropriations Act, 2015 (Pub. L. 114-4), included funding for 
additional CBP Officers at the POE. These additional officers were 
allocated utilizing the Workload Staffing Model and were directed to 
those ports with the greatest need. While these additional officers 
will bring significant support to our mission, it is important to note 
that this is a good down payment, but unfortunately, no POE will be 
``made whole'' by this allocation of officers. Therefore, CBP continues 
to pursue transformation efforts and, to the purpose of this hearing 
today, new partnerships with our stakeholders.
    There are more people and goods coming through our POE than ever 
before. Since 2009, we have seen growth in both trade and travel and we 
expect these trends to continue. Every year, OFO facilitates the travel 
of tens of millions of international tourists visiting our Nation. In 
fiscal year 2014, CBP inspected more than 370 million travelers at our 
air, land, and sea POEs, 12 million more than in fiscal year 2013.
    The facilitation and security of lawful travel and trade is a 
priority for CBP and we are taking steps, working closely with 
Congress, our stakeholders, and the U.S. General Services 
Administration (GSA), to improve our POEs and our security and 
facilitation efforts to try and meet the needs of those stakeholders 
that drive our economy. At CBP, we view effective and efficient 
security as a contributor to facilitation not a barrier. Security 
measures are vital to protecting travel and trade from the damaging 
effects of terrorist or other security incidents. Our goals of National 
security and economic prosperity are fundamentally intertwined.
    CBP's role in securing and facilitating international trade and 
travel is critical to the growth of our economy and the creation of 
more jobs.\1\ CBP's operations entail sophisticated targeting and 
communication systems, state-of-the-art detection technology, and a 
cadre of professional law enforcement personnel to identify, screen, 
and inspect high-risk persons and cargo and maintain an efficient 
stream of cross-border travel and trade. However, the success of our 
operational strategy depends heavily on the condition and operational 
utility of our inspection facilities and the availability of CBP 
personnel.
---------------------------------------------------------------------------
    \1\ ``The Impact on the U.S. Economy of Changes in Wait Times at 
Ports of Entry,'' National Center for Risk and Economic Analysis of 
Terrorism Events (CREATE), University of Southern California, released 
April 4, 2013 (dated March 31, 2013).
---------------------------------------------------------------------------
    When it comes to constructing and sustaining CBP's land port of 
entry (LPOE) inspection facilities, CBP works in close partnership with 
the GSA Public Buildings Service, which manages many of the LPOE 
facilities. Most of our 167 LPOE inspection facilities \2\ were not 
designed to meet the post-9/11 unified security and operational 
missions of CBP. Rather, they were built to support the distinct 
operations of pre-Department of Homeland Security components, such as 
the U.S. Customs Service, the Animal and Plant Health Inspection 
Service of the U.S. Department of Agriculture, and the U.S. Immigration 
and Naturalization Service.
---------------------------------------------------------------------------
    \2\ LPOEs include all at-grade and bridge land port inspection 
facilities. These land port inspection facilities fall within the POE 
definition under 8 CFR  100.4(a).
---------------------------------------------------------------------------
    Furthermore, several POEs along the land borders were built more 
than 70 years ago and require renovation or replacement to meet 
present-day operational and security standards. Many constructed as 
recently as 15 to 20 years ago also require significant modernization 
to address growing demands for additional processing capacity, new 
security requirements and enforcement technologies, and the need to 
maximize the efficiency of existing personnel and resources.
    Infrastructure enhancements are critical to the improvement of 
trade and travel facilitation; these changes are necessary to support 
current traffic volumes and modern technology. Due to competing demands 
for limited Federal resources, there has been limited investment from 
the U.S. Government in modernizing POEs. However, thanks to the support 
of Congress, CBP received authority to accept certain donations at our 
POEs.
      partnerships with the private sector and government entities
    CBP is frequently asked by our stakeholders to provide new or 
additional services at POEs across the country. We recognize the 
potential economic impact for new or expanded service, and we very much 
want to support these endeavors. However, due to limited resources, we 
are not always able to accommodate these requests.
    A key aspect of CBP's three-pronged Resource Optimization Strategy 
is the exploration of partnering with the private sector on activities 
such as reimbursement and donations. As part of CBP's Strategy, CBP 
received authority to enter into agreements under Section 560 of 
Division D of the Consolidated and Further Continuing Appropriations 
Act, 2013, Pub. L. 113-6 (Section 560); and Section 559 of Division F 
of the Consolidated Appropriations Act, 2014, Pub. L. 113-76 (Section 
559).
    Under Section 560, CBP received authority allowing the commissioner 
of CBP to enter into no more than five agreements, under certain 
conditions, to provide new or enhanced services on a reimbursable basis 
in any of CBP's non-foreign operational environments. CBP implemented 
this authority, entering into agreement with the participating 
locations \3\ before the late December 2013 statutory deadline. In 
January 2014, CBP received additional authority under Section 559, 
which authorizes CBP to enter into partnerships with private-sector and 
Government entities at POEs to reimburse the costs of certain CBP 
services and to accept donations of real and personal property 
(including monetary donations) and non-personal services. Further, 
Section 552 of the Department of Homeland Security Appropriations Act, 
2015 (Pub. L. 114-4), amended Section 560 and Section 559(e) to allow 
for certain additional charges at airports.
---------------------------------------------------------------------------
    \3\ The Section 560 participating partners are the Dallas/Fort 
Worth International Airport Board, the city of El Paso, Miami-Dade 
County, the city of Houston Airport System, and the South Texas Assets 
Consortium.
---------------------------------------------------------------------------
    These provisions respond to CBP's efforts to find innovative 
approaches to meet the growing demand for new and expanded facilities 
and, in particular, the on-going modernization needs of CBP's LPOE 
portfolio.
Reimbursable Services Agreements
    Section 559(e) expands CBP's authority, under a 5-year pilot 
program, to enter into reimbursable agreements similar to the fiscal 
year 2013 ``Section 560'' authority. This new authority allows CBP to 
support requests for expanded services including customs inspection, 
agricultural processing, border security services, and immigration 
inspection-related services at POEs; salaries for additional staff; and 
CBP's payment of overtime expenses at airports. While there is no limit 
on the number of agreements CBP can enter into at CBP-serviced seaports 
or land border ports, only 5 agreements per year are currently allowed 
at new or existing CBP-serviced airports for each of the 5 years the 
pilot program is authorized. Additionally, the law stipulates that 
agreements may not unduly and permanently impact existing services 
funded by other sources.
    CBP evaluates each Reimbursable Services Agreement (RSA) proposal 
based on a single set of objective and carefully-vetted criteria to 
ensure that final recommendations will be most beneficial to CBP, to 
the requesting parties, and to the surrounding communities. The main 
factors of consideration include the impact on CBP operations; funding 
reliability; community and industry concerns; health and safety issues; 
support from other State, local, and Federal law enforcement agencies; 
local/regional economic benefits; and feasibility of program use.
    RSAs enable stakeholders to identify enhanced services needed to 
facilitate growing volumes of trade and travel at specific POEs, and 
enables CBP to receive reimbursement so that we can fulfill those 
requirements. The authority provides stakeholders and CBP the 
flexibility to meet situational or future demand for extended or 
enhanced services to secure and facilitate the flow of trade or travel 
at participating ports. At LPOEs this authority enables CBP to open and 
staff additional lanes or provide services for extended hours to reduce 
wait times and expedite commercial and personal traffic. At airports, 
RSAs enable CBP to staff additional booths on an overtime basis during 
peak hours. At seaports, RSAs enable CBP to provide additional 
processing of cruise passengers and commercial cargo, furthering the 
facilitation of travel and trade.
    In the first 21 months of the program, CBP has entered into 
agreements with 20 stakeholders, providing more than 112,000 additional 
processing hours at the request of our partners--accounting for the 
processing of more than 2.7 million travelers and nearly 425,000 
personal and commercial vehicles. Among the participating airports, the 
added hours and supplementary lane openings, in conjunction with other 
passenger processing initiatives, have helped decrease wait times by an 
average of almost 30 percent while traveler volume has increased about 
7 percent. The program continues to expand as new agreements are signed 
every year, as authorized by this 5-year pilot program.\4\
---------------------------------------------------------------------------
    \4\ A full list of current participants is available at http://
www.cbp.gov/border-security/ports-entry/resource-opt-strategy/public-
private-partnerships/reimbursable-services-program.
---------------------------------------------------------------------------
Donation Acceptance Authority
    Section 559(f), the Donation Acceptance Authority, authorizes CBP 
and GSA to accept donations of real or personal property (including 
monetary donations) or non-personal services from private sector or 
Government entities. Any donation accepted may be used for necessary 
activities related to the construction, alteration, operation, or 
maintenance of a new or existing POE, including but not limited to: 
Land acquisition, design, and the deployment of equipment and 
technologies. These donations are expected to reduce border wait times, 
support increased traffic flow and volume, and yield other 
transportation and security-related benefits.
    The Donation Acceptance Authority legislation requires that CBP and 
GSA establish and publish its procedures and criteria for evaluating 
donation proposals submitted under Section 559.
    CBP and GSA coordinated closely to satisfy this statutory 
requirement by jointly developing the Section 559 Donation Acceptance 
Authority Proposal Evaluation Procedures & Criteria Framework, which 
CBP published on October 1, 2014.\5\ This document outlines the robust 
operational and technical evaluation criteria that CBP and GSA use to 
determine proposal viability. These criteria include but are not 
limited to: The impact to CBP operations, increased trade and travel 
efficiency, economic and community benefits, financial feasibility, and 
real estate and environmental implications. This document also 
describes the procedures that CBP and GSA use to systematically plan, 
develop, and formally accept proposed donations in close coordination 
with its public and private-sector partners.
---------------------------------------------------------------------------
    \5\ http://www.cbp.gov/sites/default/files/documents/
DAA%20Proposal%20Evaluation%20Pro- 
cedures%20%26%20Criteria%20Framework_Public%20FINAL.pdf.
---------------------------------------------------------------------------
    On July 24, 2015, CBP announced that proposals submitted during the 
fiscal year 2015 open season from the following stakeholders had 
advanced to Phase II: Proposal Planning & Development--The City of 
Donna/Donna Rio-Bravo LPOE; the City of Pharr/Pharr LPOE; and the City 
of El Paso/Ysleta LPOE. During this Phase, CBP, GSA, and the project 
sponsor will collaboratively plan and develop these proposals into 
executable projects that fulfill CBP's operational needs at an 
acceptable cost, schedule, and risk.
    In sum, CBP is implementing business improvements, thoroughly and 
systematically analyzing port of entry staffing needs, and exploring 
alternative sources of funding to bridge current and anticipated 
mission resource gaps. Both the Reimbursable Services Authority and the 
Donation Acceptance Authority enable CBP to build effective 
partnerships with stakeholders to address the port requirements 
necessary to support growing volumes of travel and trade.
                               conclusion
    The effective security of our Nation and facilitation of 
international trade and travel rely heavily on the health and 
operational utility of our inspection facilities. Innovative funding 
sources, such as the Reimbursable Services Authority and the Donation 
Acceptance Authority, are critical components of CBP's Resource 
Optimization Strategy. CBP views these authorities as an opportunity to 
proactively work with stakeholders and communities to identify business 
solutions for a variety of border management needs and generate mutual 
benefits.
    The combination of highly-trained personnel, technology, and 
modernized facilities forms the essential foundation for CBP's 
operational strategy, which every POE, large or small, must be able to 
support. CBP continues to evaluate and optimize its primary business 
processes and will further develop transformation initiatives to 
accomplish its mission more effectively and efficiently, through 
practices such as employing technology to streamline processes, 
expanding Trusted Traveler/Trader Program enrollment, increasing risk 
segmentation through enhanced targeting/pre-departure initiatives, and 
leveraging operational best practices.
    Legitimate travel and trade play a critical role in the Nation's 
economic growth and CBP recognizes its role in sustaining such growth. 
The number of international visitors and overall cross-border traffic 
is increasing, and CBP is aggressively working on modernizing our 
infrastructure and transforming the way we do business to more 
effectively and efficiently secure our Nation and improve our economy.
    Chairman Miller, Ranking Member Vela, and Members of the 
subcommittee, thank you for the opportunity to testify today. I am 
happy to answer any questions you may have.

    Mrs. Miller. Thank you very much.
    The Chair now recognizes Mr. Gelber for his testimony.

   STATEMENT OF MICHAEL GELBER, DEPUTY COMMISSIONER, PUBLIC 
    BUILDINGS SERVICE, U.S. GENERAL SERVICES ADMINISTRATION

    Mr. Gelber. Good morning, Chairman Miller, Ranking Member 
Vela, and Members of the subcommittee. Thank you for inviting 
me to this hearing.
    Our mission at GSA is to deliver the best value in real 
estate acquisition and technology services to Government and 
the American people. As part of this mission, GSA maintains a 
close partnership with Customs and Border Protection to meet 
that agency's space needs along our Nation's borders, which 
stretch over 64,000 miles.
    CBP is our primary partner among the Federal inspection 
agencies stationed along America's land borders. As such, GSA 
works closely with CBP to design, construct, maintain, and 
operate 124 of America's 167 land ports of entry, which are 
critical to the Nation's trade and security.
    On a daily basis, approximately $2 billion in goods, 
289,000 cars, 114,000 pedestrians, and 25,000 commercial 
vehicles cross the border at one of our Nation's land ports. 
The combined value of trade between United States and Canada 
and Mexico via surface transport totaled nearly $1 trillion in 
2014. Clearly, safe, secure, and modern land ports along our 
borders are critical to supporting America's jobs and our 
Nation's economy.
    Over the past 16 years, GSA has invested more than $1.8 
billion from the Federal Buildings Fund to deliver more than 20 
new land ports along our borders. However, CBP has identified 
over $5 billion in needs to recapitalize the land-ports-of-
entry inventory.
    In the absence of full access to the resources in the 
Federal Buildings Fund, GSA has been unable to execute critical 
modernization and land-port upgrades that would enhance the 
security of our borders and improve the efficient flow of 
commerce with our neighbors in Canada and Mexico.
    With constrained Federal funding, GSA has explored and used 
alternative project delivery methods to support land-port 
projects. GSA has a longstanding authority to accept 
unconditional gifts of real and personal property from other 
public or private entities. GSA has used this authority on 
occasions when State or local governments and, in a few cases, 
private entities have elected to donate land or other real 
property to GSA to realize the economic benefit associated with 
a new or expanded land port of entry.
    For example, at the San Luis II Port in Arizona, GSA 
received a donation of land and utilities in support of the 
site to help advance modernization of the port. In Donna, 
Texas, the city donated money for design, land for the site of 
the port, and 180,000 cubic yards of fill dirt for 
construction. In Columbus, New Mexico, a private land owner 
donated approximately 10 acres of land to GSA near the port 
site for construction and a bypass road for commercial trucks.
    Congress has supported these efforts by providing 
additional statutory authority to receive donations and 
reimbursable services, most recently through section 559 of the 
fiscal year 2014 Appropriations Act.
    As required by section 559, GSA and CBP worked together to 
establish a donation evaluation framework, incorporating 
feedback from a broad range of stakeholders. The jointly-
developed Donation Acceptance Procedures Framework was used by 
GSA and CBP to evaluate 7 donation proposals last year. GSA and 
CBP selected three of these proposals for further planning and 
development, which we are hopeful will result in executed 
projects that will increase security and improve trade.
    GSA is encouraged by the results of this program and hopes 
its continued availability provides another useful tool for GSA 
to support Federal operations along our Nation's border.
    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    [The prepared statement of Mr. Gelber follows:]
                  Prepared Statement of Michael Gelber
                            November 4, 2015
                              introduction
    Good morning Chairman Miller, Ranking Member Vela, and Members of 
the subcommittee. My name is Michael Gelber, and I am deputy 
commissioner of the U.S. General Services Administration's (GSA) Public 
Buildings Service. Thank you for inviting me to this hearing on 
examining the use of public-private partnerships as a tool to increase 
trade and security.
    GSA's mission is to deliver the best value in real estate, 
acquisition, and technology services to Government and the American 
people. As part of this mission, GSA maintains a close partnership with 
the Department of Homeland Security's U.S. Customs and Border 
Protection (CBP) to meet that agency's space needs along our Nation's 
borders; CBP is our primary partner among the Federal inspection 
agencies stationed along our land borders.
    With constrained Federal funding, GSA has explored and used 
alternative project delivery methods to support land port projects. I 
will discuss how GSA has implemented these alternative methods, as well 
as explain how GSA works with CBP through the traditional budget and 
appropriations process to plan and execute port projects.
                      the vital role of land ports
    GSA works closely with CBP to design, construct, maintain, and 
operate land ports of entry along more than 1,900 miles of border 
between the United States and Mexico and more than 5,500 miles of 
border between the United States and Canada. The ports managed by GSA 
are critical to the Nation's trade and security.
    On a daily basis, approximately $2 billion in goods, 289,000 cars, 
114,000 pedestrians, and 25,000 commercial vehicles cross the border at 
one of these 167 ports. From 2000 to 2014, the combined value of trade 
between the United States and Canada and the United States and Mexico 
via surface transport has increased over 80 percent, from $546 billion 
in 2000 to $987 billion in 2014. Safe, secure, and modern land ports 
along our borders are critical to ensuring an efficient flow of 
commerce and visitors that support American jobs and our Nation's 
economy.
    Of the 167 land ports of entry (LPOEs) along the U.S. borders, GSA 
manages 124, of which the Government owns or partially owns 102. GSA's 
land ports of entry encompass more than 5.5 million square feet of 
space.
gsa's on-going partnership with cbp in support of land port investments
    Over the past 16 years, GSA has invested more than $1.8 billion 
from the Federal Buildings Fund to deliver more than 20 new land ports 
along our Northern and Southern Borders. In the past 5 fiscal years, 
the administration has requested over $900 million in support of land 
port modernization to address the inspection agencies' most pressing 
needs.
    Unfortunately, Congress has provided just over $600 million of 
these requests, all of which came in fiscal year 2014 and fiscal year 
2015. In the absence of full access to the resources in the Federal 
Buildings Fund, GSA has been unable to execute critical modernizations 
and land port upgrades that would enhance the security of our borders 
and improve the efficient flow of commerce with our partners in Canada 
and Mexico.
         alternative resources in support of land port projects
    As a consequence of this funding shortfall, we have seen intense 
interest in finding alternatives to Federal appropriations to support 
the delivery of high-priority land port projects. Importantly, when 
assessing the viability of any project, GSA and CBP look 
comprehensively at the full life-cycle cost of a port. This analysis 
includes the site where construction is to take place, the 
infrastructure that will be needed to support the mission, the funding 
and source of that funding to operate and maintain the facility, and 
the sophisticated technology and equipment the Government uses to 
secure the Nation's borders. If an alternative funding source might be 
available for any of these items, GSA and CBP still would need to 
obtain funding to address the other costs associated with the project. 
Thus, acceptance of what appears to be a ``cost-free'' donation could 
ultimately result in additional costs to the Government. At the same 
time, if the investment is required to address critical commerce and 
security requirements at the border, a donation would result in lower 
costs to the Government than if the Government had to make the full 
investment. When evaluating a donation, GSA and CBP will continue to 
weigh these various cost implications relative to the opportunity's 
impact on CBP operations, border security, trade and travel, and local 
and regional economic benefits.
    GSA has long-standing authority to accept unconditional gifts of 
real and personal property from other public or private entities. GSA 
has used this authority on occasions when State or local governments, 
and in a few cases private-sector entities, have elected to donate land 
or other real property to GSA to realize the economic benefit 
associated with a new or expanded land port of entry.
    For example, at the San Luis II port in Arizona, GSA received a 
donation of land and utilities in support of the site to help advance 
the modernization of the port. In Donna, Texas, the city donated money 
for design, land for the site of the port, and 180,000 cubic yards of 
fill dirt for construction. In Columbus, New Mexico, a private 
landowner donated approximately 10 acres of land to GSA near the port 
site for construction and a bypass road for commercial trucks.
    Congress has supported these efforts by providing additional 
statutory authority to receive donations and reimbursable services. In 
fiscal year 2013, CBP received limited authority to enter into 
reimbursable service agreements with private-sector entities for the 
provision of certain inspection services.\1\ Congress expanded CBP's 
ability to execute these reimbursable service agreements, while at the 
same time broadening GSA's and CBP's donation acceptance authorities, 
through section 559 of the Consolidated Appropriations Act of 2014 (the 
``Section 559 Donation Acceptance Authority'').\2\
---------------------------------------------------------------------------
    \1\ Consolidated and Further Continuing Appropriations Act of 2013, 
Pub. L. 113-6, division D, title V, section 560.
    \2\ Consolidated Appropriations Act of 2014, Pub. L. 113-76, 
division F, title V, section 559.
---------------------------------------------------------------------------
    As required by the Section 559 Donation Acceptance Authority, GSA 
and CBP worked collaboratively to establish robust evaluation criteria, 
incorporating feedback from a broad range of stakeholders. The jointly-
developed Donation Acceptance Procedures Framework (the ``DAP 
Framework'') outlines the criteria and procedures for evaluating 
donation proposals. GSA and CBP used the DAP Framework to evaluate 7 
donation proposals received during the first open submission period, 
which concluded on December 23, 2014. CBP, with concurrence from GSA, 
selected 3 proposals to advance to Phase II: Proposal Planning & 
Development--The City of Donna/Donna RioBravo LPOE; the City of Pharr/
Pharr LPOE; and the City of El Paso/Ysleta LPOE. During this Phase, 
GSA, CBP, and the project sponsor will collaboratively plan and develop 
these proposals into executable projects that fulfill CBP's operational 
needs at an acceptable cost, schedule, and risk. In the event that 
proposal planning and development results in one or more viable 
donations that are acceptable to CBP and GSA, the parties will further 
define their respective responsibilities and funding obligations with 
respect to the proposed donations. If one or more of these projects are 
successfully implemented, the Section 559 Donation Acceptance Authority 
may prove to be an effective alternative financing model for improving 
our Nation's land ports of entry.
                               conclusion
    Thank you for the opportunity to testify today about the importance 
of our land ports for commerce and security, requirements and funding 
constraints for upgrading this infrastructure, and the opportunities 
and challenges involved with alternative financing models. I look 
forward to working with this and other Congressional committees, other 
stakeholders and the Federal inspection agencies to make strategic 
investments in our Nation's land ports of entry. I am happy to answer 
any questions you may have.

    Mrs. Miller. Thank you very much.
    The Chair now recognizes Mr. Vale for his testimony.

   STATEMENT OF SAM F. VALE, PRESIDENT, STARR-CAMARGO BRIDGE 
                            COMPANY

    Mr. Vale. Chairman Miller, Ranking Member Vela, and Members 
of the subcommittee, it is a pleasure to be here with you 
today. We are very familiar with the Blue Water Bridge and the 
Ambassador Bridge and sometimes the Peace Bridge. We work 
closely with them whenever we can.
    Private partnerships are not new for us. We did our 
original bridge in 1965 with totally private funding. All the 
facilities have been built with private funds. We are glad to 
see that the rest of the country is catching up with the old 
style that we did in Texas.
    Section 559 and 560, in many ways, had the answer to the 
trade community's on-going call for a creative response to 
consistent concerns over staffing levels at the ports of entry. 
Thanks to innovative thinking within the Department of Homeland 
Security, CBP, and leaders in Congress, like this 
subcommittee's Ranking Member Vela, plus Senators John Cornyn, 
Congressmen Henry Cuellar, Michael McCaul, and John Carter, to 
name but a few, we have this opportunity today.
    We must point out that CBP must exhaust its available 
budget before it taps into our funds. They are not allowed to 
switch the funds. So that is something that we watch very 
closely, and they are very careful in how they budget their 
overtime moneys so that we can be an extra, an add-on, as 
opposed to a substitute.
    It has been particularly beneficial during peak hours. CBP 
referred to holy week, Semana Santa. Those are times it is very 
difficult to staff for, because you have unknown peaks and 
valleys, days of the week during the holidays that big events 
can draw certain people sometimes, other days not; it is 
raining, it is not. Many things affect that, and it is 
virtually impossible to staff for it.
    The cities of McAllen and Pharr took advantage of this in 
2014 and 2015. They put up $50,000 each. Now, the city of 
McAllen got it from the chamber of commerce, primarily the 
business community, and their economic development 
organizations, and the bridge company itself. Pharr paid for it 
out of bridge tolls. So we have flexibility in how we go about 
doing what we have to do to reimburse. But it was very 
successful. The reference was made that it shortened wait times 
from 4 hours to 2. That makes a big difference to the tourists 
coming in to spend their money.
    These contributions are looked at as investments, with a 
return on investment. For example, the chamber of commerce was 
very interested in the retail sales, the hotel occupancy, and 
the restaurant sales. So was the community, the city, because 
they got tax moneys in return for those expenditures in their 
community.
    El Paso has been quite a sterling example because they are 
actually hiring full-time equivalents in El Paso, plus using 
overtime funds. The city has funded over 19,000 overtime hours 
since 2014, and they have paid over $2 million to CBP in 
reimbursable funds.
    These options are made available because we have proven 
that it really works for the country. The National Center for 
Risk and Economic Analysis of Terrorism Events at the 
University of Southern California found in 2013 that the 
addition of just 1 CBP Officer can inject $2 million into the 
U.S. economy and create 33 jobs. Those are very good returns on 
investment. Thirty-eight million jobs in the United States 
depend on international trade. Six million of those are 
associated with Mexico. More importantly, the private sector 
can't wait until the Government makes the necessary budget 
arrangements.
    We are looking forward to working with all of the Members 
of the subcommittee to expand upon this, to provide new and 
better ideas on how we are going to go forward in funding these 
activities. We would like to have better studies and 
projections of how growth is going to take place, not just 
looking at history and an excellent work model they have 
developed but actually convincing the private sector that they 
can securely provide information about their business plans so 
that we know in advance where the business is going to come 
from and help assign staffing on that basis.
    There are many other ideas that are worth bringing up; we 
will leave that to some other time and place.
    Thank you.
    [The prepared statement of Mr. Vale follows:]
                   Prepared Statement of Sam F. Vale
                            November 4, 2015
    Chairman Miller, Ranking Member Vela, and Members of the 
subcommittee, my name is Sam Vale. I am the president of the Starr-
Camargo Bridge Company, a privately-owned Port of Entry (POE) in Rio 
Grande City, Texas. Our bridge spans the Rio Grande and connects two 
communities of about 20,000 inhabitants each: Rio Grande City and 
Camargo, Tamaulipas, Mexico. We are one of the smallest passenger and 
commercial POEs along the Southern Border. In addition to bridge 
operations, my company and its subsidiaries are involved in a host of 
businesses related to cross-border trade and commerce in both the 
United States and Mexico.
    I appear before you today, however, in my capacity as the president 
of the South Texas Assets Consortium, or STAC, and as the past chairman 
of the Border Trade Alliance.
                       the border trade alliance
    For nearly 30 years, the BTA has provided a forum for analysis and 
advocacy on issues pertaining to the U.S.-Canada and U.S.-Mexico border 
regions. A network of public and private-sector representatives from 
all three NAFTA nations, our organization has been involved in a number 
of important border issues, ranging from the implementation of the 
North American Free Trade Agreement, to the original organization of 
the Department of Homeland Security to the perennial issue of staffing, 
infrastructure, and trade processes.
                   the south texas assets consortium
    The South Texas Assets Consortium, or STAC, was formed specifically 
to contract with Customs and Border Protection under Sec. 559 and its 
predecessor program, Sec. 560. Our members are:
    City of Laredo
    City of McAllen
    City of Pharr
    Cameron County
    Starr-Camargo Bridge Co.
    The members of STAC are also members of the BTA. The BTA is also 
proud to count the city of El Paso, Texas as a member, which is also a 
participant in Sec. 560, and which I will touch on in my testimony.
                          sections 559 and 560
    Section 560 of the Consolidated and Further Continuing 
Appropriations Act of 2013, and its successor, Section 559 of the 
Consolidated Appropriations Act of 2014, were, in many ways, the 
answers to the trade community's on-going calls for a creative response 
to consistent concerns over staffing levels at the POEs.
    Thanks to innovative thinking within the Department of Homeland 
Security, CBP, and leaders in Congress like this subcommittee's Ranking 
Member, Filemon Vela, and Senator John Cornyn, Congressmen Henry 
Cuellar, Michael McCaul, and John Carter to name but a few, the trade 
community now has a viable option to work in tandem with CBP to 
supplement staffing levels and improve infrastructure. Under these 
reimbursable service agreements, local governments and private-sector 
entities can apply available funds to secure expanded services at their 
POE to facilitate trade and travel processing. Under the agreements, 
CBP must exhaust its available budgeted resources before tapping those 
of its partners.
    Section 560 began with five pilot partners; STAC and El Paso were 
the only two land border entities to enter into the initial five 
reimbursable service agreements.
    Section 559 in 2014 built on Sec. 560's solid foundation by 
expanding the eligible service offerings to include customs, 
agricultural processing, border security services, and immigration 
inspection-related services at POEs. Sec. 559 also opens the 
possibility of infrastructure improvements under a donation acceptance 
authority with CBP and the General Services Administration, which 
allows for the transfer of real or personal property intended for the 
construction of a new POE or the maintenance of an existing one. STAC 
transitioned into the Sec. 559 designation and dropped the 560 process, 
and the program has since welcomed several new partners.
                  the benefits for stac under sec. 559
    The members of STAC have employed their Sec. 559 authority to 
secure overtime hours for CBP Officers. This ability has proven 
especially beneficial during times of peak cross-border activities of 
both passenger vehicles and commercial trucks.
    Holidays in Mexico and border communities, such as Semana Santa 
(Holy Week), the period between Good Friday and Easter, generate a 
significant spike in private vehicle operations. These are very hard to 
staff for as traffic ebbs and flows depending on the day of week and 
time of day.
    The cities of McAllen and Pharr POEs employed their Sec. 559 
authority during Semana Santa in 2014 and again in 2015. By doubling 
the primary inspection lanes' staffing levels, wait times were reduced 
from 4 hours to 2. In McAllen's case, $50,000 made available to McAllen 
via the chamber of commerce, economic development authority, and the 
city-owned bridge itself, were used to pay for the overtime hours. The 
city of Pharr POE paid for its overtime hours directly from bridge 
tolls.
    The city and its partners view their contributions as an 
investment, with the return on investment evidenced by greater hotel 
occupancy rates and higher retail sales and restaurant receipts.
    Discretion is left to the individual STAC member of how to pay for 
the expanded CBP services and when to use the authority. STAC members 
prefer to pay for overtime hours to process commercial cargo, but will 
also pay for expanded private passenger vehicle services by CBP, such 
as during holidays.
                                el paso
    One of the most encouraging aspects of these reimbursable service 
agreements is the program's flexibility. While STAC has used the 
program to purchase overtime hours, El Paso has used the program to 
fund overtime for current CBP Officers working to keep all lanes open 
during peak hours for pedestrian, POV, and commercial truck lanes. In 
either case, CBP has been a willing partner. El Paso chose to reimburse 
CBP for overtime to process the backlog of commercial trucks from 
manufacturers of just-in-time inventory and, to a lesser extent, 
private vehicle and pedestrian lanes. Since the inception of the 
Section 560 program, the city of El Paso has helped fund over 19,000 
overtime hours at two of the city's ports. The city has reimbursed CBP 
over $2 million for these overtime hours since January 2014.
    In addition to the application of Sec. 559 and 560 programs, the 
city of El Paso, in close collaboration with CBP, the Texas Department 
of Public Safety, manufacturers, and transportation companies among 
others, is heading efforts to start several improvement projects in an 
effort to reduce commercial wait times at the Ysleta Port of Entry 
using Lean Six Sigma methodologies. These efforts began in September 
2015 and already a total of 22 potential projects have been identified 
that can aid in reducing commercial wait times including the use of 
intelligent transportation systems, several traffic control 
improvements on both sides of the border, and two pilot programs that 
will help to more evenly distribute the arrival of commercial trucks 
throughout the operational day and lessen the impacts of peak crossing 
hours.
    This new option available to STAC and the other Sec. 559 and 560 
partners with CBP makes a real, positive difference for border 
communities and even the Nation. The National Center for Risk and 
Economic Analysis of Terrorism Events at the University of Southern 
California found in 2013 that the addition of just one CBP Officer can 
inject $2 million into the U.S. economy and create 33 jobs.\1\ Quite 
simply, trade means jobs. Thirty-eight million jobs depend on 
international trade;\2\ 6 million on trade with Mexico.\3\ More 
importantly, the private sector cannot wait until the Government makes 
the necessary budget corrections to meet the market-driven demands of 
trade and commerce.
---------------------------------------------------------------------------
    \1\ http://www.cbp.gov/border-security/ports-entry/new-report-
links-cbp-officer-staffing-economic-growth.
    \2\ http://www.tradebenefitsamerica.org/resources/more-one-five-us-
jobs-depend-trade.
    \3\ http://naftamexico.net/mapa/newmap.pdf.
---------------------------------------------------------------------------
                       responding to the skeptics
    We occasionally hear from some corners that these reimbursable 
service agreements have set an unhelpful precedent by shifting to local 
governments and the private sector responsibilities that should be 
borne solely by the Federal Government as part of its obligation to 
manage the Nation's borders.
    Without this help, though, both the U.S. and Mexican governments 
would be in violation of their international Diplomatic Notes--agreed 
upon years in advance--directing when new services were to be funded 
and operational.
    McAllen's Anzalduas International Bridge was to open commercial 
processing January 1, 2015, but to date has not been opened. The 
federal governments of both the United States and Mexico did not own 
the land and did not have the budgets to build the required 
infrastructure. McAllen agreed to pay the cost of road infrastructure 
in both Mexico and the United States, as well as donate the needed 
funds for inspection facilities on U.S. Government land. Had a 
reimbursable service agreement already been in place, the original 
Anzalduas deadline would have been met.
    We are sensitive to critics' arguments and, in a perfect world, 
would prefer that Federal budget allocations were able to keep pace 
with growing trade volumes. It simply is not in our DNA to pay for what 
is an obligation of the Federal Government. But these Reimbursable 
Services Agreements have given the trade community something it did not 
have before: Choice. Before the law that made these agreements possible 
went into effect, we had no options to help alleviate the long backups 
at our ports and had to suffer the consequences and the loss of 
competitiveness and tax dollars. Now we have the choice to enter into a 
contract with CBP to augment the agency's services to respond to our 
most pressing needs and, hopefully, receive a strong return on that 
investment. We hope our contributions can be replaced when budgets can 
pay for Federally-delivered services.
                         areas for improvement
    The program is still in its infancy, so while it has largely been a 
positive one for its partners, there are still areas for improvement.
    The lack of available regular and specially-trained staff within 
CBP's ranks remains a challenge. In El Paso, the general shortage of 
CBP agents to keep all lanes open at peak hours is problematic. As to 
the latter, the Starr-Camargo Bridge Co. would be willing to fund 
additional hours for CBP Agricultural Specialists. Unfortunately, there 
is an overall lack of these individuals agency-wide. Our willingness to 
devote funding to them does little good if they don't exist in the 
first place.
    Also, flexibility for participants in the program is key. CBP does 
not always have the manpower when we need it and are willing to pay for 
it. We would recommend the agency investigate the establishment of a 
pool of officers that could float from port to port and fill overtime 
needs and not leave a hole behind in the POE that they are assigned to.
                             looking ahead
    We are optimistic that the program will continue to grow in 
popularity. While thus far we've seen land border service agreements in 
Texas where tolled bridge crossings--and thus an existing revenue 
stream--already exist, States with non-tolled facilities are 
investigating creative ways to raise funds that could be applied to a 
Sec. 559 agreement.
    We also anticipate growth on the infrastructure side. Once 
investors have the confidence of the long-term viability of the program 
will they be more likely to make the financial commitments necessary to 
bring a project to completion and realize a return.
    As an organization, the BTA is supportive of the concept and 
possible amendment from Chairman McCaul and Congressman Hurd to make 
the Section 559 program permanent and remove the current 5-year 
limitation. Today, in the case of infrastructure projects that would 
take longer than 5 years to repay investors, CBP is authorized to issue 
an extension for a specific time period for that project only. However, 
this is not sufficient for very large infrastructure investments like 
highways to and from the POEs. What could be projected as a 30-year 
payout could turn into 50 years as circumstances change in the out-
years that are hard to predict. Thus, no infrastructure projects 
requiring significant investments have been planned that could secure 
financing from bonds or investors.
    Financial institutions or investors typically object to having any 
limits on the time frame infrastructure they financed can use to pay 
the debt. They want the ability to use this infrastructure 
unconditionally until the debt is fully serviced.
    Finally, the private sector needs to work more closely with CBP and 
Mexican Aduanas to generate an annual study that provides realistic 
business growth projections over a 3- to 5-year period. Presently, the 
primary projection data for staffing needs comes from historical data 
and a new work model. To secure access to private data and growth 
projections, industry will have to be reassured about their company's 
data security and preserving anonymity regarding their specific 
business growth projection plans.
    We must resolve the disconnect between CBP and Aduanas on how to 
operate at the ports of entry, especially regarding hours of service, 
the allocation of budgeted funds and the qualifications of needed 
staffing.
    We recommend an overall coordination effort that consists of 
smaller industry sector groups working though their industry's 
objections and concerns. The outcome would be important to both 
industry and the public sector operating at our POEs.
    We are also optimistic of future opportunities to leverage new 
resources. For example, regarding our concerns over the lack of 
specialty personnel within CBP, the State of Texas now has a grant 
program to which STAC will be able to apply to secure funds that would 
allow for the hiring of agriculture inspectors by CBP. It is innovative 
thinking like this at all levels of government that will help our 
Nation keep pace with the demands of global trade.
    We believe that private inspectors vetted by CBP can, when CBP 
lacks funds, participate in pre-inspection programs on the Mexican side 
of the border for commercial trucks. There are very valuable pilots of 
pre-inspection programs underway between CBP and Mexican Aduanas, but 
these are slow to get approved and generate little near-term-relief.
    The Border Trade Alliance and the South Texas Assets Consortium 
appreciate this opportunity to testify before you here today. The BTA 
was proud to have been a vocal advocate for the adoption of these 
innovative public-private partnerships between CBP and the trade 
community, and we believe they are proving extremely beneficial both to 
the Nation's security and its economic competitiveness. We look forward 
to working with the Members of the Homeland Security Committee and this 
subcommittee as we seek new solutions to our border challenges.

    Mrs. Miller. Thank you very much.
    The Chair recognizes Mr. Garcia for his testimony.

  STATEMENT OF DAVID A. GARCIA, COUNTY ADMINISTRATOR, CAMERON 
                         COUNTY, TEXAS

    Mr. Garcia. Chairman Miller, Ranking Member Vela, and 
Members of the subcommittee, thank you for the opportunity to 
come before you today. For the record, I provided my written 
testimony to the committee, and I look forward to a 
constructive discussion on trade and security at our ports.
    Cameron County has a history of working on public-private 
partnerships on a number of infrastructure projects. So I thank 
you for the opportunity to come before you today to share our 
views from our perspective.
    In our region, we depend heavily on the ability to move 
traffic efficiently on a daily basis. We believe strongly in 
the program to allow for public-private partnerships within the 
Department of Homeland Security's Custom and Border Protection, 
as well as the other Federal agencies. We are always looking to 
take advantage of opportunities to improve our infrastructure 
and resources.
    I applaud the Members of this committee for continuing to 
find ways to improve and authorize programs and objectives for 
the various agencies comprising DHS. We all recognize that 
protecting the homeland is the No. 1 National security 
priority.
    For us, living on the border, it is a difficult balancing 
act when it comes to trade and security but one that we know we 
have to contend with daily. Despite the challenges, improving 
the economic conditions is a fundamental priority for us.
    Cameron County owns and operates three international 
bridges, there is a private bridge, and the Port of Brownsville 
port of entry. We also expanded our Veterans Bridge recently. 
Not too long ago, we inaugurated the first international rail 
bridge on the U.S.-Mexico border in over 100 years--a true 
public-private partnership between Cameron County and Union 
Pacific Rail.
    I want to take a few minutes to talk about our county and 
some of the exciting things happening in south Texas. It is 
important to highlight these initiatives because they go hand-
in-hand with what is being discussed today.
    But, first, I would like to point out that we enjoy great 
collaboration and communication with CBP, as well as the Border 
Patrol and other law enforcement agencies. Working together, we 
have been able to forge ahead despite all the rules and 
regulations post-9/11.
    Due to the level of enhancements and improvements along the 
border and the special operations being conducted regularly, 
adequate staffing of Customs and Border Protection agents, as 
well as other mission-critical agencies such as the Department 
of Agriculture, is essential. For example, the ability for a 
port director to allocate and shift resources is a valuable 
tool in the daily operations affecting local bridge systems 
like ours. That is why we support programs that are being 
discussed here today.
    I applaud the members of our delegation--Representative 
Vela, Senator Cornyn--as well as Members of this committee for 
providing us with another tool in the toolbox as we continue to 
improve and modernize our ports of entry. As we grow and 
strategically plan our future, it is imperative that we have a 
reassurance and a level of certainty that will allow us to 
consider as many options as possible when it comes to long-term 
staffing and infrastructure funding.
    In south Texas, we are getting ready to launch rockets, and 
thousands of visitors will come to south Texas, including those 
from Mexico. Our area airports will see their fair share of 
increased activity, and Customs and Border Protection is among 
the various agencies leading in the coordination efforts.
    Our Port of Brownsville, also considered the Port of South 
Texas, is working to deepen their channel to attract post-
Panamax vessels. There are at least three LNG permits before 
the Federal Energy Regulatory Commission, multibillion-dollar 
investments that have the potential to increase the county's 
valuation by more than 20 percent.
    Given this economic growth potential, we need to be 
prepared and continue working with our Federal partners to have 
a plan in place to have the proper manpower and resources 
available.
    For us, we would like to explore possibilities at our 
bridges, including the possibility of staffing at our bridges 
and working with GSA and the Department of Agriculture at the 
Free Trade Bridge in Los Indios. In Mexico today, shippers are 
pushing to get their fresh produce to market faster utilizing 
the Mazatlan-to-Matamoros Highway. We need to ensure we have 
the discussions with CBP and USDA on how we maximize this to 
our full potential.
    Given our history of managing and operating international 
bridge systems, Cameron County is well-positioned to find 
innovative ways to work with Customs and Border Protection and 
other DHS agencies to plan for the future.
    Finally, there is a border master plan that identifies 
future projects along the border. I would encourage both 
committee staff and agency officials to work together to plan 
proactively in this process. This will help us overcome the 
difficulties and challenges as new facilities come on-line.
    Together, we need to ensure there is a level of 
coordination from beginning to end in the development of these 
ports. As we all know, the amount of trade, in terms of volume 
and value, is in the billions, and programs like this one need 
to be kept in place so viable options can be considered by 
local governments.
    I thank you, Chairman Miller, for holding this important 
hearing, and I look forward to answering any questions you may 
have.
    [The prepared statement of Mr. Garcia follows:]
                 Prepared Statement of David A. Garcia
                            November 4, 2015
    Chairman Miller, Ranking Member Vela, and Members of the 
subcommittee thank you for the opportunity to come before you today. 
For the record, I have provided my written testimony to the committee 
staff and look forward to a constructive discussion on trade and 
security at our ports of entry.
    My name is David Garcia and I serve as the county administrator in 
Cameron County. Cameron County has a history of working on public-
private partnerships on a number of infrastructure projects. So I thank 
you for the opportunity to come before you today to share our views 
from a regional perspective.
    In our region we depend heavily on the ability to move traffic 
efficiently on a daily basis through our ports of entry. We believe 
strongly in the program to allow for public-private partnerships within 
the Department of Homeland Security Customs and Border Protection as 
well as other Federal agencies. We are always looking to take advantage 
of opportunities to improve our infrastructure and manpower.
    I applaud the Members of this committee for continuing to find ways 
to improve and authorize programs and objectives of the various 
agencies comprising DHS. We all recognize that protecting the homeland 
is the No. 1 National security priority. For us living on the border it 
is a difficult balancing act when it comes to trade and travel but one 
that we know we have to contend with daily. Despite the challenges, 
improving the economic conditions is a fundamental priority for us.
    Cameron County borders the Gulf of Mexico on one side and the U.S.-
Mexico border on the other. The county owns and operates three 
international bridges. There is also a private international bridge 
(B&M) and the Port of Brownville Port of Entry. In addition, we 
recently inaugurated the first international rail bridge built on the 
U.S.-Mexico border in over 100 years--a public-private partnership 
between Cameron County and Union Pacific Railroad with funding support 
from Federal and State agencies.
    I want to take a few minutes to talk about our county and some of 
the exciting things happening in South Texas. It is important to 
highlight these on-going initiatives because they go hand-in-hand with 
what is being discussed here today.
    But first I'd like to point out that we enjoy great collaboration 
and communication with Customs and Border Protection as well as the 
Border Patrol and other law enforcement agencies in our area. Working 
together we have been able to forge ahead despite all the rules and 
regulations post-9/11.
    Due to the level of enhancements and improvements along the border 
and the special operations, northbound and southbound, being conducted 
regularly, adequate staffing of Customs and Border Protection agents as 
well as other mission-critical agencies at our Ports of Entry like the 
Department of Agriculture is essential.
    I will say that the ability for a port director to allocate and 
shift resources and manpower based on traffic patterns, special events, 
and potential security issues is a valuable tool in the daily 
operations affecting local bridge systems like ours. That is why we 
support the programs being discussed here today. We believe it will be 
beneficial to us long-term.
    I applaud the members of our delegation--Representative Vela and 
Senator Cornyn--as well as the Members of this committee for providing 
us with another ``tool in the toolbox'' as we continue to improve and 
modernize our ports of entry. As we grow and strategically plan our 
future it is imperative that we have a reassurance and a level of 
certainty that will allow us to consider as many options as possible 
when it comes to long-term staffing and infrastructure funding.
    For us the Rio Grande River is a like a street with water--it 
separates two international communities that are truly intertwined and 
connected via a transportation artery. The population in the Rio Grande 
Valley on both sides continues to climb which poses a growing challenge 
when facilitating trade and travel on a daily basis.
    As it pertains to South Texas, we are one of the fastest-growing 
and dynamic regions of the country.
    When SpaceX begins its operations in Cameron County in early 2017, 
it is estimated that we will attract upwards of 15,000 visitors per 
launch creating a South Texas Space Corridor similar to Cape Canaveral. 
Many of these visitors will come from Northern Mexico.
    Our area airports will also see their fair share of increased 
activity in the days and hours leading to a launch. Customs and Border 
Protection is among the various agencies leading in the coordination 
efforts and we will need their support as we move into the next phases 
of the project.
    The Port of Brownsville, also considered the Port of South Texas 
and the Port of Northern Mexico, is working with the U.S. Army Corps of 
Engineers to deepen their channel to 52 feet to attract post-Panamax 
vessels. There is undoubtedly an increased level of activity like never 
before.
    Cameron County and the Port of Brownsville are also working 
together on the potential construction of Liquefied Natural Gas plants 
along the ship channel. Three companies have permits pending before the 
Federal Energy Regulatory Commission. If approved, these multi-billion 
dollar investments have the potential to increase the valuation of the 
county by 20 percent or more. Another project on the horizon could 
potentially increase commercial traffic dramatically at our ports.
    Because of our strategic corridors, proximity to the deep water 
port, an adjacent rail bridge, a new interstate and our international 
ports of entry we are regarded as an ideal location for many new 
ventures.
    Given this economic growth potential we need to be prepared and 
continue working with our Federal partners to have a plan in place to 
have the proper manpower and resources available.
    For us, we'd like to explore the possibility of CBP manning the 
commercial operations at one of our Ports of Entry (Veterans Bridge) 
24/7. We'd also like to see how we can maximize resources at the only 
bridge (Free Trade at Los Indios) in South Texas that houses the U.S. 
Department of Agriculture.
    If all predictions are correct and if we see an upsurge in traffic 
due to the fact that shippers can get their fresh produce to market 
faster by way of the newly-constructed Mazatlan to Matamoros highway in 
Mexico then we need to start the discussion with both CBP and USDA on 
how we maximize this presently under-utilized port of entry.
    Given its 50-year history of managing and operating an 
international bridge system, Cameron County is well-positioned to find 
innovative ways to work with Customs and Border Protection and other 
Department of Homeland Security agencies to plan for the future.
    Finally, there is a border master plan that identifies future 
projects along the U.S.-Mexico border. I would encourage both, 
committee staff and agency officials at DHS, to work together to plan 
proactively in this process. This will help us overcome the 
difficulties and challenges as new facilities come on-line.
    Together we need to ensure there is a level of coordination from 
beginning to end in the development, construction, operation, and 
maintenance of our Ports of Entry. As we all know, the amount of trade 
in terms of volume and value is in the billions. Programs like this 
need to be kept in place so viable options can be considered by local 
governments.
    I thank you Chairman Miller for holding this important hearing and 
I look forward to answering questions from the committee.

    Mrs. Miller. Thank you, Mr. Garcia.
    I thank all of the witnesses for their testimony.
    I was taking a couple of notes while you were all talking.
    Mr. Wagner, you were saying that some of the POEs are 
actually 70 years old. I don't want to keep going on about the 
Northern Border, but I will mention that the Ambassador Bridge 
is actually, I think, over 80 years old.
    You know, I mentioned the Northern Border, and I appreciate 
Mr. Vale taking about it, because, actually, Canada is our 
largest trading partner by a long way--I mean, bigger than 
China. You know, we are all watching all these container ships 
come into all of our POEs, our ports and everything; it is 
Canada who is really our largest trading partner.
    But as we look at our various POEs, not only are they old 
and antiquated, really, certainly pre-9/11, we weren't really 
thinking in terms of the security, the design. If you look at 
some of the various configurations of the POEs, you think, my 
gosh, what were they even thinking about? Well, we weren't 
thinking, right? As a Nation, we were thinking about how you 
expedite travel and passenger travel and trade and all of this, 
so we weren't really thinking so much in terms of security.
    Now I wanted to mention and sort of dig down into the weeds 
a little bit about this entire program, this P3 program that we 
are talking about.
    Mr. Wagner, you were mentioning some of the various things. 
I would just ask you, if the Congress were to restrict this 
program, as you have mentioned some of the successes that you 
had--because it is a 5-year pilot program, so we are already 2 
or 3 years into the program. Right now, the way that we have it 
set, you have to have the appropriators actually put language 
in the appropriation bill every year to extend it.
    Now, Mr. Hurd's bill is going to give it permanence, which 
our committee, passing that, thought that was a very important 
thing. So I guess I am just sort-of looking for a bit of your 
thoughts on that.
    Also, not only the permanence but the caps of these pilot 
programs. I mean, if it is good in the--you know, right now, 
have a 5-year cap, I think. I know Judge Carter, Mr. Carter--
Mr. Vale mentioned him--on the Appropriations Committee is 
looking at extending that to 10.
    So those are all good thoughts, I suppose, but I guess I 
would just ask for a little bit more fleshing this out.
    I will start with Mr. Wagner, what you think about the 
permanency of a program for the P3s and the caps and those 
kinds of things.
    Mr. Wagner. Thank you.
    We would support any legislative effort to make this 
authority permanent. We think we have a very good relationship 
built with GSA and with our stakeholders to implement this. We 
will continue to survey the stakeholders in this to make sure 
we are meeting their needs.
    But, as far as the caps go, we would also look to remove 
the limitations on that. As long as this remains a voluntary 
program, that the stakeholders come to us voluntarily, and as 
long as we are constrained by not reducing the level of service 
we are providing today--that is an important part for us, that 
we are not just shifting this into a pay-to-play scheme, or 
things we are providing services now that we shift to just a 
reimbursable model.
    But if we can maintain the current level of service but 
then, upon request, we are able to, without limitation, review 
these requests and accommodate these requests, I think we would 
support any legislative efforts to do that.
    Mrs. Miller. I am looking for the other gentlemen to 
respond, as well, but, before they do, I think that is a very 
important point. Because I think you might have some 
municipalities or private citizens or whoever saying, why am I 
going to give CBP money here--if the funds are all fungible, 
they are just going to then take the money that should be spent 
here and spend it somewhere else, right? I mean, you have to 
make sure that that is not happening.
    Mr. Gelber, what is your thought?
    Mr. Gelber. GSA shares CBP's perspective on this matter. 
Obviously, if Congress were to pass the statute and the 
President were to sign it into law, GSA would abide by its 
conditions. In the constrained resource environment that we 
currently operate in, this type of flexibility is helpful for 
us as we support the Federal inspection agencies at the land 
ports.
    Mrs. Miller. Mr. Vale, do you have any comments on the 
current pilot programs and how we ought to change them or 
improve them?
    Mr. Vale. Yes, ma'am. We totally support Chairman McCaul 
and Congressman Hurd's initiative to make it permanent. You 
cannot build very expensive programs if you do not have a long 
term to be able to recoup the investment. That is particularly 
true when you are trying to get access roads to the ports of 
entry. We don't have any of those type of projects that will 
come on stream, primarily because the financial institutions 
and the bond holders will not take a project that is going to 
have a limit on them when they can get paid. If it doesn't 
happen, who pays the difference? So that is a problem when we 
start deep down this road.
    Now, it is not in our DNA to pay for services the 
government should be providing. However, we look at it as an 
investment, and we hope that, as you go down the road, not only 
the Congress but the agencies will see these investments are 
paying off. They look for their particular budget 
appropriations, and then we are able to keep the program so 
that our moneys can be invested in additional items and pilot 
these things.
    Texas is right now--believe it or not, they have passed a 
law that allows the agriculture department to subsidize Federal 
agriculture inspections at the ports of entry. It is a pilot, 
but that is the kind of thinking we have to do. It is a 50/50--
we have to match it 50/50.
    But these are things that we encourage are the best way to 
move forward in a tight economy, particularly in the budget 
world.
    Mrs. Miller. Mr. Garcia.
    Mr. Garcia. Thank you, Chairman.
    From a staffing standpoint, we agree with what the agencies 
are saying. From a development standpoint, you know, these 
projects take a number of years to get off the ground and 
through construction. So to have a certain amount of certainty 
with these programs helps us out in planning.
    I will give you an example. On our West Rail project, we 
had a Presidential permit, and we didn't build our project 
until 12 years later. Then, in addition to that, because we 
were utilizing Federal funds from different Federal agencies, 
we had to conduct three separate environmental studies for each 
agency. So that takes a lot of time, money, and effort.
    So being able to have these programs in place to make sure 
that on the development side, with GSA or whoever we are 
working with, will help us greatly.
    Mrs. Miller. Thank you.
    The Chair recognizes my Ranking Member, Mr. Vela.
    Mr. Vela. Thank you.
    Mr. Wagner, first of all, I would really like to thank you 
and your agency for the good work that your agents do. Over the 
course of the last year, probably about 30 to 40 Members of 
Congress and U.S. Senators have been at the West Rail Bridge 
and the Pharr Bridge and some of the other bridges. You know, 
it is one thing to sit up here in a committee hearing and 
listen to testimony, but it is a far different thing to go down 
and watch what your agents do, you know, when they are cutting 
through tons and tons of produce. Just thank you for 
accommodating those visits. I think it really helps.
    Mr. Gelber, I would like to thank you, as well, for your 
work in Donna, Texas, in, you know, helping them through the 
559 process. That has been a very important piece of work, as 
well.
    My question for you, Mr. Wagner, is: We funded 2,000 CBPOs 
in the last session of Congress. Can you give us an idea of 
where we are on that?
    Mr. Wagner. I believe we still are just shy--just a little 
bit over 800 short of that goal.
    We have been doing a lot of recruiting efforts, revamping 
our recruiting efforts, revamping our hiring process, looking 
into the different parts of that hiring process, reordering the 
different things. It has been a struggle to meet the 2,000. You 
know, we have really put a lot of effort into changing how we 
do this. We have a lot of people failing the backgrounds, is 
what it amounts to.
    But we are continuing to push forward on it and look at, 
you know, different opportunities with the universities, with 
veterans coming out of the service, and looking for better ways 
to do it. But we are still a little over 800 short of where we 
want to be.
    Mr. Vela. Is there anything you see that we can do to help?
    Mr. Wagner. I don't believe at this time. We need to just 
continue to push forward with the right recruiting efforts and 
get the right people into these jobs. We need to make sure our 
process is streamlined, that we can get people timely cleared 
with the right clearances into these positions. So I think the 
action is more on us at this point.
    Mr. Vela. I am not sure about either your involvement or 
Mr. Gelber's involvement in this project, but recently I 
visited the airport at the San Diego-Tijuana border, and it is 
a fascinating project.
    Are you in a position to elaborate on, you know, that 
process, what is taking place, and, you know, how soon that is 
set to open?
    Mr. Wagner. The cross-border terminal?
    Mr. Vela. Yeah, where you can park on this side of the 
border and pass through the tunnel.
    Mr. Wagner. It is a unique arrangement where you can park 
in the United States, cross over a land bridge into Tijuana, 
and use the airport there and fly out of Mexico to your 
destination. When you come back, you land in Tijuana, you cross 
back over the bridge and clear CBP to enter back into the 
United States. So it is really a land bridge connecting the 
airport with parking in the United States.
    It is a user-fee arrangement, so all of our staffing costs 
will be covered as we do at the user-fee airports, but this 
will be a user-fee land-border crossing. So the number of 
officers that we will have there will be fully funded by the 
stakeholder to do that.
    They are building the facility right now, and I believe it 
is scheduled to open early next calendar year, at this point.
    Mr. Vela. Well, that is great work, and I congratulate all 
of the agencies involved in pushing that project forward.
    Mr. Vale, I think you might have wanted to elaborate on the 
agricultural crossings. You know, what more would you like to 
say about that?
    Mr. Vale. What is driving this is the diet of the American 
people. It is the American housewife who is demanding higher-
quality fruits and vegetables year-round. So we have products 
that I call generally--because I can't even identify many of 
them--Asian fruits and vegetables, and they are grown in Mexico 
now.
    The Texas legislature made a determination that it was 
important to Texas, because of the jobs it creates in the State 
of Texas in the distribution to go around the country, to 
provide some pilot moneys to see how well it could generate 
additional growth. They are putting up about $600,000 or 
$700,000, to be matched 50/50 by the members of the 559 program 
so that, then, with that, we would be able to go out and 
actually even hire agriculture specialists, to provide funds to 
CBP for a period of years to hire them and get them going.
    There is a big shortage. Because it doesn't matter if you 
have the money if you don't have the people. You can't hire 
over time, you can't put people to work if they are not there. 
That is the problem we are seeing with CBP.
    When we got those 2,000 officers, we forgot to get money to 
hire the people to hire the people. They were overwhelmed with 
what they had to do in the background checks. We should have 
provided some special revenues to help them in that area.
    He may not say that, but I know the real problem is they 
ain't got enough guys to take lie-detector tests with. That is 
a problem.
    So we are looking forward to experimenting with these 
ideas. Pre-inspections, which are not clearances, but helping 
to identify the risk assessment as a new, valid way of looking 
at it.
    The preclearance programs are very interesting, what they 
just opened up in Laredo, which is a plane can be loaded, 
Mexican customs is there, U.S. customs are there, they are 
cleared, and they fly anywhere they want in Mexico when they 
take off. They don't have to go back through Customs.
    They are doing other programs. I think they have some out 
in the Otay Mesa area they are working on and some in the El 
Paso area.
    So we would like to see many of these things at least put 
into implementation form, and then they can judge how valuable 
they are after that.
    Mr. Vela. Well, my time has expired, but thank all of you 
for your good work, and thanks for being with us today.
    Before concluding, Chairman Miller, I would like to submit 
for the record a statement from Anthony Reardon, the National 
president of the National Treasury Employees Union.
    Mrs. Miller. Without objection.
    [The information follows:]
Statement of Anthony M. Reardon, National President, National Treasury 
                            Employees Union
                            November 4, 2015
    Chairman Miller, Ranking Member Vela, distinguished Members of the 
subcommittee, thank you for the opportunity to provide this testimony. 
As president of the National Treasury Employees Union (NTEU), I have 
the honor of leading a union that represents over 25,000 Customs and 
Border Protection (CBP) Officers and trade enforcement specialists 
stationed at 328 land, sea, and air ports of entry (POEs) across the 
United States as well as at 16 Preclearance POEs.
    The purpose of this hearing is to explore the expanded role of 
public private-partnerships as a mechanism to fund additional CBP 
Officers. NTEU applauds the subcommittee for recognizing that there is 
no greater roadblock to legitimate trade and travel efficiency than the 
lack of sufficient staffing at the ports. Understaffed ports lead to 
long delays in our travel and commercial lanes as people and cargo wait 
to enter the United States to long delays in our travel and commercial 
lanes as people and cargo wait to enter United States. NTEU strongly 
supported funding to hire an additional 2,000 new CBP Officers at the 
air, sea, and land ports of entry provided in the fiscal year 2014 
Omnibus bill. NTEU also strongly supports increasing immigration and 
Customs user fees and indexing these user fees to inflation to fund the 
hiring of additional CBP Officers as identified by CBP's Workforce 
Staffing Model.
    In any examination of CBP's public-private partnerships, NTEU 
recognizes first and foremost the role that user fees play to pay for 
passenger processing, trade enforcement, and facilitation inspection 
services provided by CBP to international traders and travelers. NTEU 
strongly supports increasing and indexing to inflation all user fees 
collected by CBP and depositing these indexed fees into designated user 
fee accounts to fund the hiring of additional CBP Officers as 
identified by CBP's fiscal year 2015 Workforce Staffing Model. 
According to CBP's fiscal year 2016 Congressional Justification for 
Salaries and Expenses, despite an increase in appropriated funding for 
the hiring of 2,000 new CBP Officers, CBP still faces a staffing 
shortage of 2,700 CBP Officers in fiscal year 2016 and beyond.
    For years, NTEU has maintained that delays at the ports result in 
real losses to the U.S. economy. According to the U.S. Department of 
the Treasury, more than 50 million Americans work for companies that 
engage in international trade and, according to a University of 
Southern California (USC) study, ``The Impact on the Economy of Changes 
in Wait Times at the Ports of Entry'', dated April 4, 2013, for every 
1,000 CBP Officers added, the United States can increase its gross 
domestic product by $2 billion, which equates to 33 new private-sector 
jobs per CBP Officer added. This analysis was supplemented by USC in 
its update entitled ``Analysis of Primary Inspection Wait Times at U.S. 
Ports of Entry'' published on March 9, 2014. This study found that by 
adding 14 CBP Officers at 14 inspection sites at 4 international 
airports, the potential total net impact would increase annual Gross 
Domestic Product (GDP) by as much as $11.8 million.
                           customs user fees
    CBP collects Customs User Fees (CUFs) which include CUFs authorized 
by the Consolidated Omnibus Budget Reconciliation Act of 1985 (COBRA) 
to recover certain costs incurred for processing, among other things, 
air and sea passengers, and various private and commercial land, sea, 
air, and rail carriers and shipments. The source of these user fees are 
commercial vessels, commercial vehicles, rail cars, private aircraft, 
private vessels, air passengers, sea passengers, cruise vessel 
passengers, dutiable mail, customs brokers, and barge/bulk carriers.
    COBRA fees are deposited into the Customs User Fee Account and are 
designated by statute to pay for services provided to the user, such as 
100% of inspectional overtime for passenger and commercial vehicle 
inspection during overtime shift hours. Of the 23,775 CBP Officers 
currently funded, COBRA fees fund 2,859 full-time equivalent CBP 
Officers.
    The administration proposed in both its fiscal year 2015 and fiscal 
year 2016 budget requests, an increase of $2 in CUFs. If enacted, a $2 
increase in CUFs would support the hiring of 900 new CBP Officers. 
According to NTEU's calculations indexing CUFs to inflation and 
depositing that increase into the Customs User Fee Account would 
support the hiring of approximately 600 new CBP Officers.
                     diversion of customs user fees
    Any increases to the Customs User Fee Account should be properly 
used for much-needed CBP staffing and not diverted to unrelated 
projects. Indexing COBRA user fees to inflation would raise $1.4 
billion over 10 years--a potential $140 million per year funding stream 
to help pay for the hiring of additional CBP Officers to perform CBP's 
National security, law enforcement, and trade and travel facilitation 
missions.
    The Senate-approved highway bill, H.R. 22, includes a provision, 
Section 52202, that indexes CUFs to inflation, but diverts this funding 
from the Customs User Fees Account to the General Fund to pay for 
unrelated infrastructure projects. Again, indexing CUFs to inflation 
and directing the additional funding to the Customs User Fee Account 
would support the hiring of new CBP Officers to address the current 
2,700 CBP Officer staffing shortage. If H.R. 22 is enacted with no 
change to Section 52202, CUF payers would pay $140 million a year in 
additional COBRA fees, but CBP would not receive one additional dime to 
fund much-needed new CBP Officer personnel.
    If Congress is serious about job creation, wait times, 
international tourism, trade enforcement and facilitation, Congress 
should reject Section 52202 of H.R. 22 and instead authorize indexing 
the COBRA portion of CUFs to inflation and use the increased fees to 
improve border security and processing.
                         immigration user fees
    CBP collects immigration inspection user fees (IUFs) from air and 
sea passengers traveling to the United States. Increasing and indexing 
the IUF will allow CBP to better align air passenger inspection fee 
revenue with the costs of providing immigration inspection services. Of 
the 23,775 CBP Officers currently funded, IUFs fund 4,190 CBP Officer 
positions.
    According to CBP's fiscal year 2016 Congressional Justification, 
IUF collections will remain stagnant in comparison to immigration 
costs. In fiscal year 2015, IUFs raised about $630 million, while CBP's 
actual costs to provide immigration inspections totaled about $830 
million--thereby allowing CBP to recover only 76% of total costs. IUF 
rates were last increased from $6 to $7 in November 2001. The fiscal 
year 2016 budget requests a $2 increase in the IUF. The additional 
revenue generated by this $2 fee increase would support over 1,400 new 
CBP Officers.
                 reimbursable service agreements (rsa)
    In recent years, in order to find alternative sources of funding to 
address serious CBP Officers and Agriculture Specialist staffing 
shortages, CBP received authorization and has entered into reimbursable 
service agreements (RSAs) with the private sector as well as with State 
and local government entities. These organizations reimburse CBP for 
additional inspection services including overtime pay and the hiring of 
new personnel that in the past has been paid for entirely by user fees 
or appropriated funding. According to CBP, since the program began in 
2013, CBP has entered into agreements with 21 stakeholders, providing 
more than 112,000 additional processing hours for incoming commercial 
and cargo traffic at a cost of nearly $13 million to these public and 
private-sector partners.
    Section 560 of the fiscal year 2013 DHS appropriations bill 
authorized CBP to enter into 5 reimbursable fee agreements for a 5-year 
term with the city of El Paso land port of entry, the city of Houston 
airport system; Dallas/Fort Worth International Airport; Miami-Dade 
County; and the South Texas Assets Consortium (STAC.) It should be 
noted that agricultural inspectional services are not eligible for 
reimbursement under the Section 560 program, as it is limited to 
``customs and immigration'' inspectional services such as salaries, 
benefits, relocation expenses, travel costs, and overtime as necessary 
at the city of El Paso land ports and solely to overtime at the 3 air 
ports of entry.
    An expansion of the Section 560 RSA CBP pilot program was 
authorized by Section 559 of the Consolidated Appropriations Act of 
2014, Pub. L. 113-76. Section 559 expanded on the Section 560 RSAs by 
allowing for increased services at newly selected ports, to include 
customs, immigration, agricultural processing, and border security 
services. Because of the need for CBP Agriculture Specialists to 
process incoming produce, STAC quit the 560 program and applied for the 
559 program. Under Section 560, RSAs were limited to CBP Officer 
overtime and staffing, except in the air environment where only CBP 
Officer overtime reimbursement is allowed. Under both Section 560 and 
559, reimbursement for the hiring of additional CBP Officer and CBP 
Agriculture Specialist positions is allowed at sea and land ports, but 
only overtime reimbursement is allowed at airports.
    The new Section 559 has no restriction on the number of RSAs for 
sea and land ports and no limits on the terms of agreement for customs, 
agricultural processing, border security services and immigrations 
inspection-related services. These costs may include salaries, 
benefits, administration, transportation, relocation expenses, and 
overtime expenses incurred as a result of the services requested.
                          nteu's rsa concerns
    NTEU believes that the RSA program would be unnecessary if Congress 
authorized user fees collected to be indexed to inflation and the 
additional funding provided by indexing be used as set forth in 
existing statute. Diverting the difference in the amount of CUFs 
collected currently and the additional amount indexed to inflation to 
non-CBP related projects will both increase the cost to the private 
sector by escalating the current level of CUFs paid over the next 10 
years, and by compelling the private sector to separately fund, through 
these RSAs, CBP inspectional staffing and overtime.
    NTEU also believes that the RSA program is a Band-aid approach and 
cannot replace the need for Congress to either authorize an increase in 
COBRA and immigration user fees indexed to inflation or to authorize 
increased appropriations to hire additional new CBP Officers to 
adequately address CBP staffing needs.
    Further, NTEU strongly believes that CBP should not enter into a 
RSA if it would negatively impact or alter services funded under any 
Appropriations Acts, or services provided from any Treasury account 
derived by the collection of fees. RSAs simply cannot replace CBP 
appropriated or user fee funding--making CBP a ``pay-to-play'' agency. 
NTEU remains concerned with CBP's new preclearance expansion program 
that also has a ``pay-to-play'' component in its implementation.
    NTEU also believes that the use of RSAs to fund CBP staffing 
shortages raises significant equity and other issues, which calls for 
an engaged Congress conducting active oversight.
    For example:
  <bullet> How does CBP insure that RSAs are not only available to 
        ports of entry with wealthy private-sector partners? (When RSAs 
        were first considered, there was a proposal to require 30% of 
        the total RSA funds collected be reserved for ports with 
        greatest need, not just those that have partners with the 
        greatest ability to pay.)
  <bullet> How does CBP ensure that RSA funds pay for the hiring of new 
        CBP Officer and Agriculture Specialist personnel and are not 
        simply used to pay for relocating existing CBP personnel from 
        other ports (robbing from Port A to staff Port B without hiring 
        additional staff)?
  <bullet> How does CBP ensure a long-term public-private funding 
        stream? (When RSAs were first considered, there was a proposal 
        to have RSA paid up front for 10 years over 3 installments.)
    There are also some port locations where staffing shortages are so 
severe currently, that even entering into a RSA program may be 
problematic. In 2009, there were approximately 10.7 million 
international travelers processed at New York's John F. Kennedy Airport 
(JFK). By the end of 2015, it is estimated that JFK will process 14.5 
million passengers, a 30% increase in mission-critical work over a 6-
year period. Over this same period, NTEU estimates that there has been 
a net gain of approximately 100 officers to process over 3.5 million 
additional travelers.
    For the last 2 years JFK management has received overtime cap 
waivers for CBP Officers compelling these officers to work 12-, 13-, or 
15-hour shifts day after day for months on end. Officers were required 
to come in hours before their shifts, to stay an indeterminate number 
of hours after their shifts (in the same day) and compelled to come in 
for more overtime hours on their regular days off as well.
    The majority of CBP Officers are already working all allowable 
overtime, much of which is involuntary. All CBP Officers are aware that 
overtime assignments are an aspect of their jobs. However, long periods 
of overtime hours can severely disrupt an officer's family life, 
morale, and ultimately their job performance protecting our Nation.
    CBP is currently negotiating separate RSAs with British Airways and 
American Airways at JFK. In this situation where existing Officers' 
overtime at JFK is already stretched beyond their limits, the RSA 
should be restricted to hiring new CBP Officers, and not to simply 
expanding overtime hours.
    Another concern is that CBP continues to be a top-heavy management 
organization. In terms of real numbers, since its creation, the number 
of new managers has increased at a much higher rate than the number of 
new frontline CBP hires. According to CBP's own numbers, a snapshot of 
CBP workforce demographics in September 2014 showed that the Supervisor 
to Frontline employee ratio was 1 to 5.9 for the CBP workforce, 1 to 
6.1 for CBP Officers and 1 to 6.9 for CBP Agriculture Specialists.
    The tremendous increase in CBP managers and supervisors has come at 
the expense of National security preparedness and front-line positions. 
Also, these highly-paid management positions are straining the CBP 
budget. With the increased use of RSAs to fund additional CBP Officer 
new hires, NTEU urges that CBP return to a more balanced supervisor to 
front-line employee ratio.
                            recommendations
    Funding for additional CBP staff must be increased to ensure 
security and mitigate prolonged wait times for both trade and travel at 
our Nation's ports of entry. The use of RSAs as an alternate source of 
funding is merely a Band-aid approach and cannot replace the need for 
Congress to authorize an increase in CUFs and immigration user fees by 
indexing these fees to inflation or to provide sufficient 
appropriations to hire 2,700 new CBP Officers to adequately address CBP 
staffing needs.
    Therefore, NTEU urges the committee to:
  <bullet> support legislation to authorize funding through 
        appropriations and a user fee increase indexed to inflation for 
        the needed 2,700 new CBP Officers;
  <bullet> engage in robust oversight of RSAs to ensure that this 
        program does not replace primary funding sources or result in 
        inequitable distribution of CBP Officer resources;
  <bullet> reject the provision in the Senate-approved highway bill 
        that diverts needed Customs user fee funding from CBP staffing 
        and overtime to unrelated projects.
    The more than 25,000 CBP employees represented by NTEU are proud of 
their part in keeping our country free from terrorism, our 
neighborhoods safe from drugs and our economy safe from illegal trade, 
while ensuring that legal trade and travelers move expeditiously 
through our air, sea, and land ports. These men and women are deserving 
of more resources to perform their jobs better and more efficiently.
    Thank you for the opportunity to submit this testimony to the 
committee on their behalf.

    Mrs. Miller. The Chair now recognizes the gentleman from 
Pennsylvania, Mr. Barletta.
    Mr. Barletta. Thank you, Madam Chair.
    First of all, I want to say that I am a big supporter of 
public-private partnerships. I Chair a subcommittee on T&I, and 
we are doing some great things at looking at P3s with Federal 
properties. I really want to focus on the real property part of 
the pilot program.
    Mr. Gelber, can you please tell me what you have learned 
from the evaluation of the real property donation authority 
pilot program in the omnibus? What has worked well and not so 
well, and what should we change?
    Mr. Gelber. I think the key advantage for GSA is our 
partnership with CBP on this matter. Our primary responsibility 
is to respond to their mission requirements, and having the 
statute allows us a formal framework to have that conversation 
with CBP.
    As we have reviewed the various proposals, it is not clear 
if people may have misunderstood the limitations of the 
statute, but some of the proposals received were not in 
compliance with the statute. I think, as we begin to educate, 
if you will, or inform the user base around this issue, I think 
the types of proposals will get, maybe, more positive and 
responsive to CBP's needs.
    GSA, as the Federal real property manager, is very 
interested in this program, primarily because of the 
limitations, as, Congressman, I am sure you are aware of, on 
the usage of the Federal Buildings Fund. As I said, this 
particular program is a way for us to support CBP given those 
funding limitations.
    Mr. Barletta. Do you agree that, since none of the three 
projects within the pilot program have even entered into the 
construction phase, it should be important that we allow the 
pilot program to continue gathering information about how the 
donation authority really will work with real property?
    Mr. Gelber. Completely agree. When individuals and 
companies are making improvements on a real property, it is 
very important that what is designed is actually what is 
constructed and that the construction lives up to the 
specifications of the facility that is proposed.
    To date, as you point out, we have yet to actually complete 
a process around this particular program. Evaluating ensuring 
that what is proposed is actually what is delivered is a key 
part of this program for GSA.
    Mr. Barletta. GSA is the Government's landlord, and CBP is 
a law enforcement agency. I believe CBP should not be 
distracted with administrative duties, spending time and money 
managing properties, when this is what GSA does for the Federal 
Government. These agents, in my view, are critically important 
and should be focused on enforcing our laws, not creating 
duplicative administrative bureaucracy.
    Mr. Wagner, yes or no, it is just a yes-or-no answer: Does 
CBP seek to expand its real property authority over ports of 
entry? Yes or no, do you support the current division of real 
property responsibilities between CBP and GSA under the current 
law in the pilot program?
    Mr. Wagner. Yes, we support the current arrangement we have 
built under this pilot authority.
    Mr. Barletta. Mr. Gelber, yes or no, do you support 
granting additional real property authority to the CBP?
    Mr. Gelber. GSA believes it is the appropriate Federal 
agency to handle real property authority, so we would prefer to 
retain that authority within GSA's purview.
    Mr. Barletta. Mr. Wagner and Mr. Gelber, do you both commit 
to work with me to develop revised legislative language that 
keeps the real property authorities with GSA and maintains the 
real property pilot program until we have a chance to evaluate 
it?
    Mr. Wagner. Yes, we would commit to working with you to do 
that and building a framework that allows the operational 
requirements to be articulated and discussed and evaluated in 
conjunction with GSA. So absolutely.
    Mr. Gelber. We would also agree. Again, our key role and 
our key mission is to support CBP and its operations. We need 
to ensure the real property we provide responds to their 
mission needs.
    Mr. Barletta. Okay. Thank you.
    Thank you, Madam Chair.
    Mrs. Miller. I thank the gentleman.
    The Chair now recognizes the gentlelady from California, 
Mrs. Torres.
    Mrs. Torres. Thank you, Madam Chair.
    Thank you to the panel for being here.
    Mr. Wagner, CBP's expansion of preclearance to Abu Dhabi 
was controversial in part because it involved a foreign 
government to pay for our security operations. Planned new 
preclearance operations will follow this model, as well. With 
public-private partnerships, CBP is also having other entities, 
whether it is local governments, bridge operators, or airport 
terminals, pay for its operation.
    CBP's immigration, customs, and agricultural activities at 
ports of entry are a Federal responsibility, is it not?
    Mr. Wagner. Yes, but by having the reimbursable mechanism, 
it allows us to expand, to provide those services that people 
are requesting from us. In a case like preclearance----
    Mrs. Torres. So does it make sense to have private partners 
pay for these services on a rather ad hoc basis over the long 
term?
    Mr. Wagner. Well, they have paid for a number of years 
through user fees and other fees for services. So this is 
really just an extension of longstanding authorities and 
practices to supplement what is appropriated for us to be able 
to provide.
    Mrs. Torres. So, while it is Federal responsibility, to 
you, it is appropriate to have airports and local governments 
and other entities, on a case-by-case basis, pay for these 
services. Is that what you are saying?
    Mr. Wagner. I would say it allows us to provide those 
services in a way we would say no before.
    Mrs. Torres. But you think it is appropriate?
    Mr. Wagner. Well, it allows us to provide the service.
    Mrs. Torres. ``Do you think it is appropriate?'', is the 
question. Yes or no?
    Mr. Wagner. I have no comment as to whether it is 
appropriate or not.
    Mrs. Torres. You are refusing to answer my question.
    The vast majority of funding CBP has received under 
reimbursable service agreements has been from airports, with 
airports paying over $10.3 million of just under $13 million 
paid by all participants. Why do you think this is?
    Mr. Wagner. It allows us to provide the cost to work into 
their business model to see if it is something they want to 
pursue, whereas otherwise the answer might have been, no, we 
could not provide that service.
    Mrs. Torres. Do you think additional CBP staffing should be 
based solely on ability to pay, or should security and 
facilitation needs be factored in?
    Mr. Wagner. Absolutely, security and facilitation needs 
need to be factored in.
    Mrs. Torres. Thank you.
    Mr. Vale, in your testimony, you speak to problems created 
by an overall shortage of CBP Officers. You state that, even 
when you are willing to pay for additional staffing, there are 
sometimes not enough CBP Officers to fulfill the need.
    How often does this happen? What more needs to be done to 
expand the ranks of CBP Officers to ensure proper staffing at 
ports of entry?
    Mr. Vale. Well, it happens quite a bit when you have sudden 
surges in certain types of commodities, particularly the 
agricultural imports that are surging dramatically, coming in 
from Mexico. We put in requests for overtime, and the 
Agricultural Specialists are just nonexistent. I mean, they 
reach their limit that they can work under the law, and then 
you can't make them--and you can't replace them. You have to 
have those guys there.
    So we need more of them, and we would be glad to pay for it 
because it is good business practice. We don't like paying for 
them; we object to it. But if you leave a truck at the port of 
entry overnight, 10 percent of its value disappears.
    Mrs. Torres. Absolutely.
    It is my understanding from CBP that use of reimbursable 
service agreements by land ports of entry has dropped off 
considerably. Why do you think this is? What challenges do land 
ports of entry have in funding additional staffing under this 
program?
    Mr. Vale. Well, I think the challenges are that we need to 
get the money and the people where they need to be.
    We think that we ought to have more of a business-type 
model to where you even have people that are designed to be 
moved around, whether short distances from ports of entry, to 
fill a need instead of having to go through the normal TDY 
process that they do now. They can do it now, but it really is 
budgetarily restricted. We need to have more people that we can 
have flexibility with how CBP manages.
    Remember, it is their people. We don't get to hire them. We 
don't get to give them instruction. They are the boss. We just 
put up the money.
    Mrs. Torres. In public-private partnerships, how many 
public-private partnership contracts have been awarded to 
woman- and minority-owned businesses since Congress authorized 
this type of partnership?
    Mr. Vale. I don't know, but I am a minority.
    Mrs. Torres. Well, I am not talking about you specifically.
    Mr. Wagner. I will have to look at that and get back to you 
on that one.
    Mrs. Torres. Thank you.
    I yield back my time.
    Mrs. Miller. Thank you.
    The Chair now recognizes the gentleman from Texas, Mr. 
Hurd.
    Mr. Hurd. Thank you, Chairman. I appreciate you holding 
this hearing, which is an important topic.
    I appreciate all the witnesses being here today.
    Commissioners Wagner and Gelber, I appreciate your 
willingness to serve on such a unique panel. Mr. Vale and Mr. 
Garcia, I don't think you all recognize the uniqueness of this 
panel. It is rare to get members of the public and the private 
sector on the same panel. So, since this was the hearing topic, 
I appreciate Department of Homeland Security agreeing to this.
    This is an incredibly important issue for my district. I 
have over 820 miles of the U.S.-Mexican border. Many of the 
border communities I represent have seen a record increase in 
international trade and travel over the past decade and are 
looking to capitalize on this growth to their economies.
    As Chairman Miller mentioned, you know, our average land 
port of entry being over 40 years old, it is clear the Federal 
Government needs to do a better job at prioritizing funding for 
modernization and expansion. Despite $2 billion in investment 
since 2006, there remains a gap of about $4 billion in funding 
necessary to modernize the land ports of entry. I recognize 
that traditional appropriations have not kept pace with funding 
needs, and that is why in tough fiscal times we need innovative 
funding programs like P3s.
    To that end, this committee has taken steps to try to 
promote programs like the 559 and provide some stability by 
codifying these pilot programs. There is a bit of a discussion 
up here in this House on this program, and I just want to be 
clear.
    Commissioner Wagner, you are not seeking and CBP is not 
seeking any additional real property authorities. Is that 
correct?
    Mr. Wagner. That is correct. We are not.
    Mr. Hurd. Okay. I don't think anybody wants you all to get 
in the managing-buildings business.
    Commissioner Gelber, is CBP, under the 559 program, getting 
involved in real property?
    Mr. Gelber. Through our partnership with CBP, CBP focuses 
on their mission requirements regarding these donations; GSA is 
interested and looks at the real property implications of 
possibly accepting a donation. But we have discussions on both 
topics to ensure GSA is meeting CBP's needs.
    Mr. Hurd. If we made this pilot program permanent, would 
that change any of that arrangement or agreement?
    Mr. Gelber. It would depend what the specific language of 
the statute would be, but, as it is currently structured, no 
donation can proceed unless GSA and CBP together decide to 
accept the donation.
    Mr. Hurd. That is helpful and clear. I will be cutting that 
video and passing it along to some of my colleagues to make 
sure that we are clear on that topic, because this is something 
that we need to do.
    When we talk about border security, we can secure our 
border and facilitate the movement of goods and services at the 
same time. In an increasingly challenging environment with 
budgets and money, you know, one way to grow our economy is to 
increase trade, and we are doing that on our Northern and 
Southern Border.
    Mr. Vale, can you tell the committee what expanding these 
programs would specifically mean for ports of entry like the 
ones you work with every day?
    Mr. Vale. Well, it means we do more business and we 
generate more tax revenue for the country and we enjoy a better 
quality of life in the United States.
    Mr. Hurd. Amen, brother.
    Commissioner Gelber, have there been any instances where 
you feel as though there has been a conflict between GSA and 
CBP or where CBP has overstepped its bounds when it comes to 
these P3 agreements?
    Mr. Gelber. None that GSA has been involved in.
    Mr. Hurd. Excellent.
    Commissioner Wagner, we spent time today discussing 
donation authority. You have seen the donation authority 
language in H.R. 3586, I believe. Do you have any problems with 
the way it is constructed?
    Mr. Wagner. No, I think we support that section of it.
    Mr. Hurd. Excellent.
    This is an important issue, and I would like to ask, open 
it up to all four of you all, do you have any particular 
concerns with providing long-term stability of these programs?
    I would like to let the record reflect that everybody shook 
their head.
    Mr. Vale. I didn't understand the question.
    Mrs. Miller. None at all.
    Mr. Hurd. Do you have any particular concerns that, if this 
program was long-term, that you would have any problems with 
these programs becoming long-term programs?
    Mr. Vale. No. That would be a very good thing.
    Mr. Hurd. Excellent.
    Madam Chairman, I yield back.
    Mrs. Miller. I thank the gentleman very much.
    The Chair now recognizes the gentlelady from Arizona, Ms. 
McSally.
    Ms. McSally. Thank you, Madam Chair.
    Thank you, gentlemen, for your testimony today.
    As was noted, the average port of entry, land port of 
entry, is 40 years old. The one in the city of Douglas, 
Arizona, is 82 years old, built in 1933. Renovated 22 years 
ago, but, still, it is pretty old, and it really needs to be 
updated. Sixty-four-thousand commercial trucks in 2014; $4 
billion worth of trade; a total of 8.3 million people in two-
way traffic. It is expected to continue to grow at 5 percent.
    In 2007, GSA determined through a feasibility study there 
is needed expansion at the Douglas port of entry. The Arizona 
Department of Transportation in 2013 determined that the 
existing Douglas port of entry will not adequately allow CBP to 
do its mission there. So we need a new port of entry in 
Douglas.
    I know, in 2003, GSA and CBP worked together to come up 
with a multi-year program for modernizing our land ports of 
entry. I know there is the $4 billion gap, but how many 
projects have been done on that list? How did you prioritize 
that list?
    Mr. Gelber. On prioritization of projects, GSA responds to 
CBP's 5-year plan surrounding land ports of entry. CBP 
obviously can speak to the actual mechanics of that plan, but 
it focuses on the age of the facility, the usage of the 
facility, and the future out-year plans for that facility.
    GSA's goal is to, again, respond to CBP's need but ensure 
the facilities we construct are adequate for their mission 
needs.
    Ms. McSally. So, Commissioner Wagner, where is the Douglas 
port of entry on that list right now?
    Mr. Wagner. I will have to check and get back to you.
    But I know we are looking at the list this past year, we 
are reprioritizing the list. We go through a structured 
evaluation, looking at the operational considerations, the 
workload, the workload projected growth, the age of the 
facility, condition of the facility, can we operate our 
technology in the space, and the requirements that are there.
    So it is a big portfolio to go through, but it is 
prioritizing into that, into a 5-year plan.
    Ms. McSally. Great. We would really like to see where Doug 
is on that list.
    Mr. Wagner. Yes.
    Ms. McSally. The best-case scenario, we would, obviously, 
like to see appropriated funds used as a high priority to build 
a new port of entry there for the benefits that were all 
mentioned here today, for the increased opportunities for 
security.
    But this little town is dependent on this port, as well. I 
mean, this is a small, rural town, and it is dependent on that 
cross-border trade. It not being able to really wait any 
longer, it tried to figure out a way to use this new 559 to 
come up with a program. Literally, this town is willing to 
mortgage its future with tens of millions of dollars to invest 
in the land, invest in the infrastructure in order to make this 
happen. But it didn't meet the narrow definition, and it was 
rejected, because it didn't meet the narrow definition of the 
current P3 partnership.
    What else can we do and what else can the town of Douglas 
do and what can we do? When they are willing to do everything 
it takes and mortgage through a bond program their future to 
build a new port of entry, what other authorities and how can 
we adjust this program so that we can move forward and get this 
thing done?
    Mr. Gelber. Specifically towards the donation that was 
proposed by the city of Douglas----
    Ms. McSally. No, I know why it was rejected, but I am 
looking forward. What do we need to do to get it done?
    Mr. Gelber. I think that the key issue would be that it 
would be a true donation to the Government and there would not 
be out-year costs that would affect either the budgets of CBP 
or GSA, to be a true donation.
    Ms. McSally. Okay. But is there a way that we could modify 
the program? Because you currently pay leases for land in other 
places, right?
    Mr. Gelber. That is correct.
    Ms. McSally. They were simply asking for a very modest 
amount of money to be leased back, as, again, this city is 
willing to, you know, invest significantly.
    Is there not a way for us to modify this program that even 
allows for those leases? Because you currently lease land in 
other places.
    Mr. Gelber. Under the terms of the 559 program, it needs to 
be a true donation. So the----
    Ms. McSally. The current program.
    Mr. Gelber. The current program.
    Ms. McSally. But we are the Congress, so we can adjust 
things. So if we were to adjust that and change that 
legislative authority, is that something that would maybe 
increase opportunities across the country and also the Douglas 
port of entry?
    Mr. Gelber. The concern GSA would have regarding a donation 
surrounding a lease program would be that the donation may not 
be, again, a true donation. The primary concern that we have is 
that, if something is a donation, it is, ``free'' to the 
Government. If it is a donation with out-year costs, that is a 
concern to GSA.
    Ms. McSally. Got it.
    Are you guys willing to sit down with us and Douglas to try 
and figure out a way forward on this?
    I mean, we have to be innovative, and whether that includes 
changes in legislative authorities--I mean, we have a willing 
partner here, and we have to figure out how to get this done. 
So are you willing to sit down with us and do that?
    Mr. Gelber. GSA is always willing to sit down with members 
of the border community to discuss this particular topic or any 
other topic your office or other offices may have.
    Ms. McSally. Great.
    Mr. Wagner. Yes, I would agree, as well, for CBP.
    Ms. McSally. Great. Thank you.
    Moving on to the manning situation, you referenced that you 
are still 800 short. My first bill signed into law a couple 
weeks ago, the Border Jobs for Veterans Act, directing you guys 
to streamline actively recruiting veterans, streamlining their 
background clearances, this is a win-win situation. I would 
like to know how quickly you are going to be able to implement 
that.
    What other barriers are there? Somebody mentioned after 
that bill that you have an age limit of 37. So if somebody 
retires after 20 years of service, they actually are not 
eligible. Sure, you know, a retired master sergeant is still 
pretty able-bodied and might be able to be, you know, a good 
asset in those positions.
    I have also heard that the polygraphs being, you know, 
across the board versus potentially case-by-case; or the drug 
use in the last 3 years, you know, not being--it is being a 
one-size-fits-all versus looking at it case-by-case.
    Are there any other barriers that need to be lifted in 
order to fill your positions?
    I know I am over my time, so if you could answer quickly.
    Mr. Wagner. Yeah, I mean, we are fully supportive of the 
bill you referenced. I will be meeting with senior DOD 
officials tomorrow----
    Ms. McSally. Great.
    Mr. Wagner [continuing]. To start to work on that. We are 
highly supportive of that. I am very confident we could find 
800 veterans----
    Ms. McSally. Yes.
    Mr. Wagner [continuing]. That can fit our requirements so 
we can get them into these positions.
    Ms. McSally. Exactly.
    Mr. Wagner. So thank you for supporting that and really 
pushing us and DOD to come to the table and work that out. The 
reciprocity is a big thing, like you mentioned.
    Ms. McSally. Okay. Great.
    We can follow up later for the record if any of those other 
limitations I mentioned--I don't know if those are internal 
policy issues or statutory, but we want to do what we can in 
order to streamline getting good people into these jobs because 
of the impact it is having on our security and our economy.
    So thanks for your time.
    Thank you, Madam Chair. I yield back.
    Mrs. Miller. Thank you very much.
    Before we conclude--and I think it has been an excellent 
hearing and, certainly, great testimony from the witnesses. We 
appreciate the public and the private sector both being here 
testifying today.
    Let me just throw this out. Is there any question that we 
didn't ask you that we should ask you? Sometimes we don't think 
of the right questions here. Something that in the public 
sector you are really dealing with that is a specific challenge 
that we should know about that we didn't ask you about? In the 
private sector, as well? I mean, if somebody came to you and 
said, what is your biggest challenge with this? Is there 
anything that we didn't ask you?
    Mr. Wagner.
    Mr. Wagner. No, I think we covered it. Really, it is the 
opportunity to sit down with our stakeholders, to be able in a 
formal structure to provide them our costs so they can 
calculate that into their business model to see if it makes 
sense. This authority simply allows them to do that.
    Mrs. Miller. Mr. Gelber.
    Mr. Gelber. From GSA's perspective, the primary challenge 
we face is having full access to the Federal Building Fund. If 
we were to have that access, we would be able to allocate more 
resources to land ports of entry on the Northern and Southern 
Borders. That would most likely be the greatest assistance to 
GSA. The 559 program is helpful, but the access to full funding 
would truly be a step in the right direction to assist CBP.
    Mrs. Miller. Mr. Vale.
    Mr. Vale. I would say that, you know, we have never seen so 
many Republicans in south Texas since these programs passed. We 
have a lot of people coming down to see how it is working. We 
think that we need----
    Mrs. Miller. This is a bipartisan hearing, I just want to 
tell you that.
    Mr. Vale. No, I understand that, but it is mostly Democrats 
down there.
    Anyway, but it is important for us to be able to take the 
successes and not leave them as just being supported by non-
Governmental budgets. They need to be turned into budgets and 
then leave the moneys to be new pilots and new ventures with 
new ideas in the future so that we can stay ahead of it instead 
of always dealing from the behind. That is that problem.
    Mrs. Miller. Thank you.
    Mr. Garcia.
    Mr. Garcia. Madam Chair, I mentioned in my testimony the 
flexibility for our local port officials to have that 
flexibility to move people around. It is important to us.
    You know, we go through training exercises probably once or 
twice a year with all the Federal agencies, figuring out 
whether or not, you know, an issue comes up at one of our 
bridges. For a port director to have that flexibility is 
important to us, when we are moving just-in-time cargo through 
our ports, through the Port of Brownsville, which is growing 
tremendously.
    So I am thankful for coming before you today and sharing 
our thoughts, and I appreciate all the work that you all are 
doing. Thank you.
    Mrs. Miller. Well, thank you, gentlemen, all of you, very 
much. Again, we appreciate you sincerely coming here. Those of 
you that traveled long distances, it certainly was very 
beneficial for us; I hope for you, as well. We appreciate that.
    With that, pursuant to committee rule VII(E), the hearing 
record will be held open for 10 days in case there are any 
Members of the committee that might have some additional 
questions for the witnesses. We will try to get those responses 
in writing.
    Without objection, the committee stands adjourned.
    [Whereupon, at 11:14 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
